Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of March 31, 2012
Foreword
This is the ninth quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers the period from January 1 to March 31, 2012. The U.S. Embassy reported that, as of
March 31, 2012, $2.488 billion in civilian assistance funds for fiscal years 2010 and 2011 had been
obligated and that $2.791 billion had been spent since fiscal year 2010.

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan—the U.S. Agency for International Development, the Department of
State, the Department of Defense, the Department of Commerce, the U.S. Department of Agriculture,
the U.S. Trade and Development Agency, and the U.S. Institute of Peace. The information on program
oversight comes from audits, reviews, and investigations performed by the Offices of Inspector General
of the U.S. Agency for International Development, the Department of State, and the Department of
Defense, as well as by the Government Accountability Office.



                  /s/                   .
Michael G. Carroll
Acting Inspector General
U.S. Agency for International Development



                /s/                      .
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



                 /s/                     .
Lynne M. Halbrooks
Acting Inspector General
Department of Defense
Contents
Executive Summary ........................................................................................................................................................... 1

Background.......................................................................................................................................................................... 3

Program Status ................................................................................................................................................................... 7

    Energy ............................................................................................................................................................................ 10

    Economic Growth ....................................................................................................................................................... 12

    Stabilization ................................................................................................................................................................... 19

    Health ............................................................................................................................................................................. 26

    Education ....................................................................................................................................................................... 29

    Cross-Cutting Priorities: Good Governance, Gender Equity, and Greater Transparency....................... 33

    Assistance to Pakistani Institutions ......................................................................................................................... 36

Staffing ................................................................................................................................................................................ 40

Risks and Mitigation Strategies ..................................................................................................................................... 42

Oversight Status ............................................................................................................................................................... 47

    USAID Office of Inspector General........................................................................................................................ 47

    Department of State Office of Inspector General .............................................................................................. 54

    Department of Defense Office of Inspector General ........................................................................................ 55

    Government Accountability Office ......................................................................................................................... 55

    Completed Oversight Reports as of March 31, 2012 ........................................................................................ 56

Appendix—Abbreviations ............................................................................................................................................. 60
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009), authorizes
democratic, economic, and development assistance to Pakistan of up to $1.5 billion per year from fiscal
year (FY) 2010 to FY 2014, for a total of as much as $7.5 billion. The U.S. Department of State’s
Pakistan Assistance Strategy Report, issued in December 2009, guides the U.S. Government’s civilian
assistance program in Pakistan, which is designed to build trust and a long-term partnership between the
two countries by strengthening mutual security, stability, and prosperity.

The U.S. Embassy reported that, as of March 31, 2012, $2.488 billion in civilian assistance funds for
FYs 2010 and 2011 had been obligated and that $2.791 billion had been spent since FY 2010. These
funds are intended to address the country’s most critical infrastructure needs; help the Pakistani
Government meet basic needs and provide improved economic opportunities; and strengthen Pakistan’s
capacity to pursue economic and political reforms that reinforce stability.

Challenges to implementation of the civilian assistance program in Pakistan remain in every sector.
Limited technical capacity, corruption, and a shift toward more decentralized governance have affected
the implementation of many assistance efforts. Implementing partners and program participants are
sometimes subject to criticism and harassment for their association with U.S. Government efforts.
Assistance programs are also hindered by strict Government of Pakistan requirements for travel outside
Islamabad and provincial capitals. Program staffing has been hampered by the denial of visas and visa
extensions to U.S. Government employees. As of March 15, 2012, 16 assignment visas, some of which
had been pending for as long as 11 months, remained unissued.               Despite these challenges,
implementation of assistance programs continued.

The U.S. Agency for International Development (USAID) continued to implement more programs
through Pakistani institutions, including national and provincial governments and nongovernmental
organizations (NGOs). During FYs 2010 and 2011, USAID made 103 awards totaling more than
$1.7 billion to governmental and nongovernmental Pakistani institutions. From October 1, 2011,
through March 31, 2012, USAID made an additional 30 awards to these groups totaling $357.6 million.
To overcome risks to its programs and improve monitoring and oversight of them, USAID continued to
conduct preaward assessments of local implementing partners. USAID also began to conduct broad-
based monitoring and evaluation activities under a new institutional contract to enhance the mission’s
oversight.

To protect USAID funds against waste and theft, USAID’s Office of Inspector General (OIG) pursued
hotline complaints and conducted audits and investigations. USAID OIG closed five investigations and
released two performance audits and six financial audits during the reporting period. The performance
audit of USAID’s Pakistan Transition Initiative Program noted that it was successful in identifying basic
community needs in areas suffering from instability and extremism and implementing small-scale projects
to meet those needs; however, the projects did not clearly link to the mission’s longer-term
                                                                                                       1
programming in these areas. Meanwhile, the audit of the Pre-Service Teacher Education Program found
that, although the program had advanced reforms to improve teacher education, it did not meet targets
for 12 of 19 performance indicators. USAID agreed with OIG recommendations and has developed
plans to implement them.




                                                                                                   2
Background
U.S. civilian assistance to Pakistan is critical to maintaining the long-term strategic partnership that the
U.S. Government sought to forge with the Government of Pakistan and its citizens through the
Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009). The act
authorized $1.5 billion per year for FYs 2010–14, for a total of up to $7.5 billion, to support democratic,
economic, and development assistance.

In 2009, the U.S. Department of State (DOS) developed a strategy for providing civilian assistance to
Pakistan.1 The strategy’s objectives include addressing the country’s most critical infrastructure needs;
helping the Pakistani Government meet basic needs and provide improved economic opportunities,
especially in areas most vulnerable to extremism; and strengthening Pakistan’s capacity to pursue
economic and political reforms that reinforce stability. The strategy initially focused on high-impact,
high-visibility infrastructure programs; the provision of humanitarian and social services; and improved
governance and security. In 2011, USAID and DOS refined the strategy to focus assistance on energy,
economic growth, stabilization, health, and education. Programs in these sectors incorporate cross-
cutting themes of good governance, gender equity, and greater transparency.2

The U.S. assistance effort in Pakistan continues to face political and security challenges. In late
November 2011, a cross-border incident involving North Atlantic Treaty Organization and Pakistani
forces claimed the lives of 24 Pakistani soldiers. This incident and other security and political
developments over the last year have prompted some elected officials in the United States and Pakistan
to call for a reevaluation of aspects of the relationship between the two countries. In March 2012,
Pakistan’s Parliament began a review of the terms of the Pakistan-U.S. relationship. This review process
continued through the end of the quarter.

Since the ratification of the Enhanced Partnership with Pakistan Act, the U.S. Congress has appropriated
$2.602 billion in civilian assistance funding for Pakistan through select foreign operations accounts.3 As
of March 31, 2012, the U.S. Embassy in Islamabad reported that U.S. Government agencies had obligated
$1.698 billion of this total (Table 1). Other civilian assistance funds for Pakistan are provided through
accounts that are not allocated in advance to programs and activities in specific countries. These funds,
which are not reflected in the table, include other significant sources of civilian assistance such as
International Disaster Assistance, Food for Peace, Migration and Refugee Assistance (MRA), and

1
  Pakistan Assistance Strategy Report, December 14, 2009.
2
  Office of the Special Representative for Afghanistan and Pakistan, Status Report: Afghanistan and Pakistan Civilian
Engagement, November 2011.
3
  Foreign operations funds account for most of the U.S. Government’s civilian assistance to Pakistan. However,
other funds have also contributed to civilian assistance efforts, including funds from the Departments of Homeland
Security and Justice.


                                                                                                                   3
Emergency Refugee and Migration Assistance (ERMA).

                 Table 1. Civilian Assistance to Pakistan by Fund and Agency for
                      Select Foreign Assistance Funds as of March 31, 2012
                                      ($ Million; Unaudited)

                                          Appropriated†                                           Obligated
             Fund*                                                           Agency
                                FY 2010     FY 2011       Total                                   FY 2010-11

    Economic Support Fund                                            Department of
                                  1,292       919         2,211                                            0.2
    (ESF)                                                            Commerce (DOC)

                                                                     DOS                                  62.4

                                                                     USAID                             1,458.5

                                                                     U.S. Department of
                                                                                                          19.0
                                                                     Agriculture (USDA)
                                                                     U.S. Institute of Peace
                                                                                                           3.0
                                                                     (USIP)
                                                                     U.S. Trade and
                                                                     Development Agency                    3.9
                                                                     (USTDA)

                                                                             Subtotal                 1,547

    Global Health Child
                                    30         28            58      USAID                                28
    Survival (GHCS)

    International Narcotics
    and Law Enforcement            170        114           284      DOS                                  75
    (INCLE)

    Nonproliferation, Anti-
    terrorism, Demining,
                                    24         25            49      DOS                                  48
    and Related Programs
    (NADR)

    Total                        1,516      1,086         2,602                                       1,698

Source: Congressional Research Service and U.S. Embassy Islamabad.
* This table provides information on select funds that are provided in the foreign operations portion of the
  President’s budget. Figures reported in the table are restricted to funds that are allocated in advance to
  specific country programs and activities. Other support for civilian assistance to Pakistan is provided through
  accounts that are not allocated in advance to programs and activities in specific countries.
†
     Reported amounts are limited to appropriated funds that have been allocated. Foreign operations
     appropriations for FY 2010 were provided in the Consolidated Appropriations Act, 2011, Public Law 111-117
     (December 16, 2009); and the Supplemental Appropriations Act, 2010, Public Law 111-212 (July 29, 2010).

                                                                                                                 4
    Foreign operations appropriations for FY 2011 were provided in the Department of Defense and Full-Year
    Continuing Appropriations Act, 2011, Public Law 112-10 (April 15, 2011). As of March 31, 2012, funds
    associated with the FY 2012 foreign operations appropriation had not been fully allocated.


Congress’s December 2011 foreign operations appropriation for FY 20124 did not provide country-
specific funding levels for all types of assistance to Pakistan. These funding levels are set by DOS and
USAID in consultation with Congress under Section 653(a) of the Foreign Assistance Act of 1961, Public
Law 87–195 (September 4, 1961). Consultations regarding country-specific allocations of FY 2012 funds,
including civilian assistance allocations to Pakistan, began in March 2012 but had not concluded at the
end of the quarter.

In February 2012, President Obama submitted the administration’s FY 2013 budget request to Congress.
The foreign operations portion of the request included $1.072 billion in civilian assistance funds for
Pakistan.5




4
 Consolidated Appropriations Act, 2012, Public Law 112-74 (December 23, 2011).
5
 U.S. Department of State, Congressional Budget Justification, Fiscal Year 2013, Volume 2: Foreign Operations,
February 13, 2012.


                                                                                                                 5
                                       Map of Pakistan




Source: USAID Office of Transition Initiatives, Geographic Information Unit.




                                                                               6
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are implementing
programs in energy, economic growth, stabilization, health, education, and the cross-cutting areas of
governance, gender equity, and greater transparency. The following table and the sections that follow it
provide information on the status of the programs in these areas.

The U.S. Embassy reported that as of March 31, 2012, $2.488 billion in civilian assistance funds from
FYs 2010 and 2011 had been obligated and that $2.791 billion in funding had been spent to support the
civilian assistance strategy since FY 2010 (Table 2).

Table 2. Civilian Assistance to Pakistan by Sector, Agency, and Fund as of March 31, 2012
                                  ($ Million; Unaudited)

                                                                 Obligated*                 Expended
        Managing
                                     Fund
     Agency or Office                                                                      FY 2010-12†
                                                     FY 2010     FY 2011      Total

 Energy

 USAID                         ESF                        98.3         –         98.3            121.2

 Subtotals                                               98.3          –         98.3            121.2

 Economic Growth

 DOC                           ESF                         –           0.2        0.2              2.4

 USAID                         ESF                       284.6       113.3      397.9            319.4

 USDA                          ESF                        19.0         –         19.0             12.8

 USTDA                         ESF                         3.9         –          3.9              3.7

 Subtotals                                              307.6        113.5      421.0            338.4

 Stabilization (including Humanitarian Assistance)

 Department of
                               NA                        NA          NA         NA               NA
 Homeland Security

 Drug Enforcement Agency,
                               NA                        NA          NA         NA               NA
 U.S. Department of Justice



                                                                                                         7
                                                             Obligated*              Expended
       Managing
                                      Fund
    Agency or Office                                                                FY 2010-12†
                                                 FY 2010     FY 2011      Total

Economic Section (ECON),
                                NADR                  15.0        10.7       25.7        NA
U.S. Embassy

                                ESF                    –           –          –           10.7
Narcotics Affairs Section
(NAS), U.S. Embassy
                                INCLE                 71.0         4.4       75.4         53.7

Political Section (POL),
                                NADR                   1.6         1.8        3.3          3.6
U.S. Embassy

Population, Refugees, and
Migration Section (PRM),        MRA / ERMA            91.3        42.5      133.8        192.9
U.S. Embassy‡

Regional Security Office
                                NADR                  15.4         4.0       19.4         24.4
(RSO), U.S. Embassy

                                ESF                  410.2        51.2      461.4        768.4

                                Food for Peace        96.8       115.1      211.9        292.1
USAID
                                International
                                Disaster             247.4       164.0      411.4        531.0
                                Assistance

USIP                            ESF                    3.0         –          3.0          0.6

           §
Subtotals                                           951.6        393.7    1,345.3      1,877.3

Health

USAID                           ESF / GHCS           224.3         –        224.3        161.3

Subtotals                                           224.3          –       224.3         161.3

Education

Public Affairs Section (PAS),
                                ESF                   19.5        19.5       39.0         42.0
U.S. Embassy

USAID                           ESF                  206.5         –        206.5        182.6

Subtotals                                           226.0         19.5     245.5         224.6




                                                                                                 8
                                                                     Obligated*                       Expended
             Managing
                                        Fund
          Agency or Office                                                                           FY 2010-12†
                                                     FY 2010         FY 2011          Total

    Cross-Cutting Priorities: Good Governance, Gender Equity, and Greater Transparency

                                  ESF                        2.2            –               2.2               0.9
    Democracy, Human Rights,
    and Labor Office,             Human Rights
    U.S. Embassy                  and Democracy              2.1            –               2.1               1.9
                                  Fund

    Department of Defense
                                  NA                         7.0            7.0           14.0              NA
    (DOD)

    Federal Bureau of
    Investigation (FBI),          NA                       NA             NA             NA                 NA
    U.S. Department of Justice

                                  Consular and
                                  Diplomatic                 6.9            9.3           16.3                8.2
    PAS                           Programs

                                  ESF                        –             21.2           21.2                2.7

    POL                           NA                       NA             NA             NA                 NA

    USAID                         ESF                       97.6            –             97.6               54.3

                §
    Subtotals                                             115.8            37.6          153.3               67.9

            §
    Totals                                              1,923.6          564.2         2,487.8           2,790.5

Source: U.S. Embassy Islamabad.
Note: In some cases, numbers do not sum to provided subtotals and totals because of rounding. A dash indicates
a value of zero. NA means not available.
*
     Obligations are reported by the fiscal year for which funds were appropriated. Because FY 2012 funds had not
     been fully released for obligation by the end of the reporting period, obligations were not reported for
     FY 2012.
†
     Expenditure figures reflect funds spent in FYs 2010-12 regardless of the year in which the funds were
     appropriated or obligated. Some expenditures during this period, for example, were of funds appropriated in
     FY 2009. As a result, these figures cannot be used to determine how much of the obligated funding reported in
     this table remains unexpended.
‡
     In addition to these funds, PRM provides funding to assist Afghan refugees in the region. This regional effort
     includes assistance to refugees in Pakistan and has been associated with $147.4 million in FY 2010 and 2011
     obligations, and $214.3 million in expenditures from FY 2010 through March 31, 2012.


                                                                                                                    9
§
    These subtotals and total obligations and expenditures do not reflect funding for all assistance programs
    because complete or consistent data was not available for all programs.



Energy
Nearly half of the Pakistani population lacks access to modern energy services. Rolling blackouts often
last 10 to 12 hours per day, constraining economic development and disrupting health, education, and
other services. High subsidies, low tariff collection rates, and distorted prices have discouraged private
companies from investing in energy infrastructure and building additional capacity. The U.S.
Government and other donors provide technical assistance to help the Pakistani Government develop
appropriate energy pricing, regulatory, and privatization policies and assist in implementing Pakistan’s
energy reform plan. In addition, the United States aims to increase electricity generation, decrease
transmission losses, and increase cost recovery by investing in selected energy infrastructure.

USAID has nine energy programs under way (Table 3). To meet growing energy demands, USAID’s
programs seek to help the Pakistani Government supply hydropower through the completion of the
Gomal Zam and Satpara Dams and the rehabilitation of the Tarbela Dam. USAID is also rehabilitating
three thermal power stations. Table 3 lists USAID’s active programs in this category of assistance.

              Table 3. USAID Energy Programs as of March 31, 2012 (Unaudited)

                                                    Start      End         Implementing           Funding
       Name                  Description
                                                    Date       Date          Partner                ($)

                                                                        International
Energy Efficiency      Improves efficiency of
                                                    3/09       7/12     Resources Group            28,500,000
Project                irrigation tube wells
                                                                        and Khushhali Bank

                       Provides technical and
                       engineering support to                           Advanced
Energy Policy          USAID-funded                                     Engineering
                                                    10/08      1/15                                16,336,559
Project                infrastructure projects                          Associates
                       implemented by the                               International
                       Government of Pakistan

                       Increases hydropower                             Water and Power
Gomal Zam Dam
                       capacity and builds          1/11       12/12    Development                40,000,000
Project
                       transmission lines                               Authority (WAPDA)

                       Repairs and maintains a
Guddu Project                                       5/10       11/12    WAPDA                      18,068,000
                       thermal power station

                       Rehabilitates a thermal
Jamshoro Project                                    5/10       11/12    WAPDA                      18,360,000
                       power station


                                                                                                          10
                                                         Start   End       Implementing     Funding
      Name                      Description
                                                         Date    Date        Partner          ($)

Muzaffargarh              Rehabilitates a thermal
                                                         5/10    11/12   WAPDA               15,193,000
Project                   power station

                          Improves management
Power                     capacity, financial systems,
                                                                         International
Distribution              billings, and collections of   9/10    9/13                        29,499,409
                                                                         Resources Group
Project                   power distribution
                          companies

Satpara Dam               Increases hydropower
                                                         1/11    4/13    WAPDA               19,000,000
Project                   capacity

Tarbela Dam               Rehabilitates a
                                                         4/10    12/12   WAPDA               16,500,000
Project                   hydropower station

Source: USAID/Pakistan.


As of March 31, 2012, USAID reported that 490 megawatts of energy had been added as a result of U.S.
Government-supported construction and rehabilitation efforts. USAID also reported these examples of
accomplishments in its portfolio of energy programs:

    The six signature energy projects that Secretary Clinton announced in October 2009, involving
    rehabilitation and new construction of hydroelectric and thermal power plants, continued to
    progress. USAID has made related cash reimbursements to the Government of Pakistan for
    approximately $70 million since January 2012.

    Since early 2010, projects at the thermal power plants at Jamshoro and Muzaffargarh have added
    25 megawatts and 235 megawatts, respectively, of power generation capacity to the country.

    The Satpara Dam is currently operating at 13.8 megawatts of capacity and is serving the electricity
    needs of the population of Skardu in northeastern Pakistan.

    The Tarbela Dam is now generating an additional 118 megawatts of power generation capacity.
    Installation of electrical components is under way on the last set of power generation equipment,
    which is expected to add another 10 megawatts. Installation is to be completed by May 2012.

    Women working in engineering, customer service, and other departments of the Islamabad Electric
    Supply Company received information technology training as part of the Power Distribution Project.
    The project is helping reform the energy sector by improving the performance of Pakistan’s power



                                                                                                    11
   distribution companies so that they can reduce losses and generate more revenue. In total, 1,100
   people are being trained.

   Capacity-building efforts continued at more than 20 key government institutions with responsibilities
   relating to the performance of the power sector. More than 1,000 Government of Pakistan officials
   have received technical training on critical energy activities aimed at improving operational
   performance, customer service, and financial results.

   The Power Distribution Project sponsored a 1-week professional program for senior engineers and
   financial managers from Pakistan’s power distribution companies. The program included technical
   presentations, visits to well-run power utilities, and round table discussions addressing topics related
   to human resource management at power distribution companies.

   At a ceremony in Lahore on February 28, 2012, 20 engineers received certificates for completing a
   training program in power system analysis. The training program, organized by USAID/Pakistan’s
   Energy Policy Project, honored participants’ skills in analyzing and proposing solutions to bottlenecks
   in power transmission systems.

   USAID continues to follow up on the U.S.-Pakistan Energy Dialogue as the mission evaluates and
   formulates responses to critical issues in the energy sector, including governance, financial health,
   electricity rates, market efficiency, private sector participation, civil society and community
   participation, institutional capacity, and the legal and regulatory framework.

USAID also reported challenges in implementing three major energy projects at the Guddu, Jamshoro,
and Muzaffargarh thermal power plants. The Agency originally planned to disburse funds to participating
government-owned power generation companies through separate U.S.-dollar accounts for each
company. USAID subsequently learned that this arrangement conflicted with Pakistani Government
procedures regarding the banking activities of government entities. As the Agency worked with
Pakistani authorities to develop a solution, participating power generation companies did not have
sufficient funds to acquire needed parts and equipment, and the projects were delayed. USAID is in the
process of amending its agreements for the thermal power plants to comply with Pakistani Government
banking procedures. USAID anticipates that needed revisions to the agreements will be completed in
May 2012.


Economic Growth

Over the past 3 years, Pakistan has experienced high inflation and relatively low economic growth.
Nationally, unemployment exceeds 12 percent, and rates are higher in urban areas. Small businesses
provide the majority of new employment, but they lack access to finance. Similarly, agriculture, which
accounts for 21 percent of gross domestic product and employs 44 percent of the labor force, is
constrained by insufficient investment and inappropriate policies.


                                                                                                        12
The U.S. Government’s economic growth program for Pakistan is designed to stimulate broad-based,
inclusive economic growth, particularly in agriculture, trade, and entrepreneurship, through projects that
support policy reform, improve trade conditions, assist in workforce development, increase agricultural
productivity, and improve water management. USAID, DOC, USDA, and USTDA support programs
under this category of assistance.

USAID currently has 14 programs for economic growth, including 2 transfers of funds to other agencies
(Table 4). These programs support trade facilitation, development of provincial irrigation systems, and
production and sale of agricultural commodities, among other activities.

       Table 4. USAID Programs to Promote Economic Growth as of March 31, 2012
                                     (Unaudited)

                                                    Start    End         Implementing          Funding
      Name                  Description
                                                    Date     Date          Partner               ($)

                      Increases productivity,
Agribusiness          product quality, and                            Agribusiness Support
                                                    11/11    11/16                             10,300,000
Project               competitiveness of                              Fund
                      agribusiness value chains*

                      Restores livelihoods of
                      flood-affected farm
                      families in 22 districts by                     U.N. Food and
Agriculture / Flood
                      supporting the immediate      9/10     3/12     Agriculture               47,000,000
Recovery Project
                      resumption of the                               Organization
                      agricultural production
                      cycle

                      Strengthens evidence-
                                                                      International Food
Agriculture Policy    based policy analysis for
                                                    7/11     7/15     Policy Research            5,800,000
Project               food security and
                                                                      Institute
                      macroeconomic stability

Balochistan                                                           U.N. Food and
                      Helps improve livelihoods
Agriculture                                         9/10     12/12    Agriculture              10,400,000
                      and food security
Project                                                               Organization

                      Provides technical
                      assistance on policy                            Ministry of Finance,
Competitiveness
                      decisions, regulatory         3/06     3/12     Government of            11,561,000
Support Fund
                      frameworks, and public-                         Pakistan
                      private partnerships




                                                                                                       13
                                                Start    End         Implementing          Funding
      Name                 Description
                                                Date     Date          Partner               ($)

                                                                   Dairy Rural
                     Improves milk production
Dairy Project                                   7/11      7/14     Development              2,500,000
                     and increases sales
                                                                   Foundation

                     Supports women’s                              Mennonite Economic
Entrepreneurs
                     microenterprises in        6/09      6/14     Development             26,826,069
Project
                     vulnerable areas                              Associates

                     Assists small and
                     medium-size enterprises
                     in areas vulnerable to
Firms Project                                   5/09      2/13     Chemonics               47,688,726
                     conflict to help them
                     become internationally
                     competitive

                     Improves irrigation
Gomal Zam
                     systems to increase        10/11     9/14     WAPDA                   40,156,031
Irrigation Project
                     agricultural output

                     Provides technical
                     expertise to support the
                     establishment of public-
Grain Storage                                                      International Finance
                     private partnerships for   1/11      1/14                              2,500,000
Project                                                            Corporation
                     the management,
                     handling, and storage of
                     strategic grain reserves

                     Improves irrigation
Satpara Irrigation
                     systems to increase        1/11      9/14     WAPDA                    8,928,595
Project
                     agricultural output

                     Improves customs
                     procedures and the
                     Pakistani Commercial
Trade Project                                   6/09      6/13     Deloitte                20,323,820
                     Service to increase
                     exports and trade at the
                     Afghan border

                     Provides advisers to gem           Renewed
Transfer to DOC                                 2011               DOC                      3,000,000
                     and mineral markets                annually




                                                                                                  14
                                                      Start     End          Implementing            Funding
       Name                     Description
                                                      Date      Date           Partner                 ($)

                          Improves production and
                          sales of commodities,
                          enhances government                 Renewed
Transfer to USDA                                      2009                USDA                       40,000,000
                          research and extension              annually
                          work, and helps eradicate
                          agricultural diseases

Source: USAID/Pakistan.

* A value chain includes the full range of activities required to bring a product or service from concept to end
  use. Value chains include activities such as design, production, marketing, and distribution.


As of March 31, 2012, USAID reported that 696,496 rural households had benefited directly from U.S.
Government assistance. USAID also reported these examples of progress and success in its portfolio of
economic growth and agricultural programs:

    USAID awarded a cooperative agreement to implement the Agribusiness Project in
    November 2011. Key activities so far include the formation of farmer enterprise groups and the
    identification of providers of technical and business training. Farmer enterprise groups form
    according to value chain, and their members act collectively to access services, resources, and
    domestic and international markets. The project plans to develop farmer enterprise groups
    throughout Pakistan with a total membership of 45,000.

    During the quarter, the Agriculture Policy Project conducted a review of the Pakistan Agriculture
    Research Council and its role in light of the devolution of power to provincial authorities under the
    18th Amendment to the Constitution of Pakistan. The project also reviewed the status of
    biotechnology regulation and met with representatives of other USAID projects to identify policy
    gaps and contribute to the establishment of a network of academic and research institutions
    working on policy questions.

    The Agriculture Policy Project is sponsoring a survey of rural households that will inform
    government policy and research on agricultural development and poverty reduction. The survey,
    which will be conducted among 2,000 rural households in 20 districts in Punjab, Khyber
    Pakhtunkhwa, and Sindh Provinces, deals with incomes, consumption patterns, expectations,
    perceptions, and preferences. During the reporting period, the project trained 68 people in
    17 districts to conduct the survey; half of the trainees were women.

    During the first 3 months of the year, the Dairy Project trained 732 farmers in farm and livestock
    management and 595 female livestock extension workers in milk marketing to increase their
    entrepreneurial potential. During that span, the project also provided training in artificial

                                                                                                             15
insemination to 169 workers. The project is also running a media campaign regarding breed
improvement, best management practices, and marketing.

During the quarter, WAPDA expedited work on the Gomal Zam Irrigation Project, which is now
34 percent complete.

The Agriculture/Flood Recovery Project, which concluded in March 2012, completed work on the
rehabilitation of 281 flood-damaged watercourses or channels used for irrigation in Khyber
Pakhtunkhwa after additional cement, sand, and gravel were supplied to the sites under the project.

During this quarter, the Entrepreneurs Project registered and trained 5,770 producers in improved
production practices, bringing the number of microentrepreneurs benefiting from USAID assistance
under this project to 20,693.

A rapid assessment survey of beneficiaries of the Entrepreneurs Project in the Larkana District of
Sindh Province revealed that 43 percent of those who received training on better livestock
management practices reported an increase in milk yield, with yields increasing 0.6 liters per day on
average per milking animal. Meanwhile, new businesses established with assistance from the project
yielded a 41 percent increase in the monthly incomes of female livestock extension workers and a
12 percent increase in the monthly incomes of female village milk collectors.

The Firms Project provided technology and management assistance to more than 100 firms while
strengthening their links to markets. Firms supported by the project mobilized more than $43,000
in investment and increased sales revenues by more than $290,000.

The Competitiveness Support Fund ended on March 31, 2012. It was instrumental in assisting the
Government of Pakistan’s Planning Commission in developing its Framework for Economic Growth,
which focuses on reducing economic distortions, improving the functioning of domestic markets,
creating space in cities through proper zoning, inducing investment in human and social capital, and
enhancing connectivity and interactivity. The Competitiveness Support Fund partnered with the
World Economic Forum in conducting surveys for Pakistan’s Global Competitiveness Rankings, and
published four issues of the State of Pakistan’s Competitiveness Report in collaboration with the
World Economic Forum. The Competitiveness Support Fund also worked with Pakistan’s Board of
Investment to update its investment policy, which now provides a plan for meeting 2030 foreign
direct investment targets and lays a framework for a liberal investment regime, investment
protection, industrial infrastructure, markets and trade, labor and productivity, and fiscal policy and
investment promotion.

The Trade Project and the Pakistan National Committee of the International Chamber of
Commerce signed a letter of cooperation through which the Trade Project will facilitate
implementation of the International Road Transit Convention of 1975 in Pakistan. This will help link
Pakistan’s transit routes to routes through Afghanistan and Central Asia, and complement the

                                                                                                    16
    Afghanistan-Pakistan Transit Trade Agreement. The Trade Project will also support the training of
    private sector and Customs Administration personnel on the implementation of the convention.

    In December 2011, during bilateral talks with India, Pakistan committed to normalizing trade
    relations with India by granting it most-favored-nation status. The Trade Project has built on this
    development by assisting the Ministry of Commerce in completing its list of Indian imports that are
    ineligible for reduced tariffs.

USAID also reported challenges in implementing its economic growth and agriculture programs. USAID
cited security as an ongoing challenge. The USAID mission also noted that obtaining long-term visas for
expatriate implementers poses a significant challenge for the implementation of projects.

DOC. DOC has three programs that support the Embassy’s economic growth initiative—the market
research, preliminary information memorandum, and event management programs. The market
research program aims to provide interested investors with information about promising sectors of
Pakistan’s economy, the preliminary information memorandum program is designed to highlight credible
projects with high potential for financial return, and the event management program has sponsored
business exchanges and investment promotion events between Pakistan and the United States.

USDA. USDA continues to implement agricultural development programs with funding from USAID.
These programs provide assistance to increase agricultural productivity through technical exchanges,
agricultural research, and control of plant and animal diseases. USDA programs are implemented
through international organizations that work with Pakistani universities, Pakistani agricultural research
groups, and government agencies.

USDA reported the following examples of progress and success for the quarter:

    Under the USDA Wheat Productivity Enhancement Project, the International Maize and Wheat
    Improvement Center coordinated a week-long tour of 50 wheat-breeding trials, seed production
    sites, and disease surveillance stations in Pakistan. The travelling seminar enabled 28 farmers,
    researchers, extension staff, seed company representatives, and policy makers from the federal
    government and each province to exchange ideas, learn about new wheat varieties, and observe
    disease surveillance activities.

    In January, under the Cotton Productivity Enhancement Program, USDA sponsored the visit of 10
    Pakistani representatives to Orlando, Florida, to attend the premier annual conference on cotton
    production and research in the United States. The Pakistani participants, most of whom were
    scientists, met with U.S. cotton researchers, representatives of Cotton Incorporated, and the
    Agricultural Research Service’s national program leader for cotton.

    Under the Animal Disease Control Program, representatives of USDA’s Animal Plant Health
    Inspection Service met with officials from the U.N. Food and Agriculture Organization to provide an

                                                                                                       17
   update on program progress and discuss issues related to vaccine purchases for foot-and-mouth
   disease. Over 200,000 doses of vaccine have been purchased for the program, and during the
   quarter, more than 1,500 were administered to a dairy colony in Karachi.

   Under the Watershed Rehabilitation Program, the International Center for Agricultural Research in
   Dry Areas signed program budgets and work plans with six Pakistani implementing partners. These
   partners are expected to run demonstration sites to teach farmers the benefits of good farm water
   management and introduce alternative technologies for irrigation and on-farm water storage. The
   sites are to begin operating by the end of the third quarter of 2012.

   Under the Fisheries Feeding Trials Program, the American Soybean Association sponsored the visit
   of two U.S. fisheries experts to tour the proposed sites for the feeding trials and meet local feed
   manufacturers. The experts provided recommendations and insights on how to implement the
   program more effectively. U.S. balanced feed imports are expected to enter Pakistan in June, and
   the trials will begin later that month.

In late March, Pakistan’s Prime Minister announced the National Zero Hunger Program to be designed
and implemented by the Ministry of National Food Security and Research. The announcement of the
ambitious, 5-year, $16 billion program signaled government support for the Ministry to implement its
mandate. USDA will work with the Ministry to coordinate its efforts with those of provincial authorities
to maximize their effectiveness.

USTDA. USTDA funds various forms of technical assistance, feasibility studies, reverse trade missions,
and business workshops that support the development of modern infrastructure and a fair and open
trading environment. In Pakistan, USTDA activities emphasize the need for infrastructure improvement
in energy, transportation, and food security and link Pakistani development interests with U.S. exports
and American companies offering project solutions.

USTDA reported several noteworthy project developments and successes during the reporting period.

   USTDA has reserved funding for technical assistance on the infrastructural, operational, and
   business requirements for acquiring and operating a fleet of locomotives on the existing Karachi-
   Lahore Railway. A USTDA grant for this purpose is expected to be signed next quarter.

   Following the completion of a USTDA-funded feasibility study on the viability of installing
   photovoltaic power systems in schools run by Beaconhouse (an international network of private
   schools founded by a Pakistani woman), the school system purchased and installed U.S. solar
   equipment in a school in Lahore. The owner of Beaconhouse schools is currently preparing bid
   documents to provide an additional 10 schools with similar solar equipment, with more to follow in
   its network of 400 schools.




                                                                                                     18
    A recently completed USTDA-funded feasibility study for biomass cogeneration6 for a paper mill
    prompted the owner to begin pursuing the acquisition of a 60-megawatt biomass boiler, which the
    study found was the most practical option in terms of power generation and cost.

    USTDA reported that a feasibility study it funded on an expanded maintenance, repair, and overhaul
    facility for Pakistan International Airways partially contributed to the February 2012 sale of five
    Boeing aircraft to the airline. The aircraft have a total list price of almost $1.5 billion and, according
    to Boeing, will help sustain approximately 7,700 U.S. aerospace jobs.


Stabilization

The U.S. Government seeks to enhance stability in border areas and regions vulnerable to violent
extremism. The U.S. Government supports the Government of Pakistan’s efforts in the Federally
Administered Tribal Areas (FATA), Khyber Pakhtunkhwa, and other key areas through short-term
development activities, longer-term investments in infrastructure, and support for incremental
improvements in governance. Stabilization activities are guided by the U.S. Government’s strategy for
stabilization of Pakistan, prepared in 2011 and closely aligned with the USAID’s 2010 Post-Crisis Needs
Assessment for Khyber Pakhtunkhwa and FATA. Activities include improving the responsiveness and
effectiveness of the Pakistani Government in restoring citizen trust, stimulating employment and
livelihood opportunities, ensuring the delivery of basic services, countering radicalization, and fostering
reconciliation. USAID and the U.S. Embassy’s NAS, ECON, RSO, and USIP support ongoing assistance
programs in this category.

USAID had 13 stabilization programs and 5 monitoring activities under way during the quarter (Table 5).
These programs provide cash transfers for housing damage, vocational training, and improvements in
roads and electricity generation. In addition, USAID is planning a program that will provide physical,
social, and economic support to civilian victims of conflict.

           Table 5. USAID Stabilization Programs as of March 31, 2012 (Unaudited)

                                                      Start       End          Implementing             Funding
       Name                    Description
                                                      Date        Date           Partner                  ($)

Benazir Income
                        Provides cash assistance                            BISP, Government of
Support Program                                        6/09        6/10                                160,000,000
                        to needy families                                   Pakistan
(BISP)†




6
  Biomass cogeneration is the burning of low-value byproducts to create electricity, and the conversion of the heat
lost in the process to steam or hot water for thermal energy.


                                                                                                                19
                                                   Start   End       Implementing         Funding
      Name                Description
                                                   Date    Date        Partner              ($)

                   Establishes child
Child Protection   protection centers and                          U.N. Children’s Fund
                                                   9/10    9/12                             3,538,000
Program            provides support for                            (UNICEF)
                   psychological counseling

                                                                   National Database
Citizens’ Damage   Provides cash assistance                        and Registration
Compensation       to flood-affected               6/11    6/12    Authority,             190,000,000
Fund†              households                                      Government of
                                                                   Pakistan

                   Provides health
                   equipment and mobile
FATA Child
                   health units, reconstructs      9/06    12/12           ***             26,150,000
Health Project
                   health facilities, and trains
                   health-care providers

                   Improves roads; water
FATA               infrastructure; and
Infrastructure     electricity generation,         12/09   12/14           ***            178,686,537
Program            distribution, and
                   transmission

                   Provides vocational
                   training and
                   apprenticeships,
FATA Livelihood
                   establishes market
Development                                        5/08    2/13            ***             59,400,000
                   linkages, and undertakes
Program
                   improvements in small-
                   scale infrastructure for
                   farmers

                   Increases the Secretariat’s
                   capacity in participatory
FATA Secretariat   planning, management,
                                                   9/11    9/16            ***              4,998,085
Support Project    and oversight of
                   stabilization and
                   development activities




                                                                                                  20
                                                  Start   End       Implementing         Funding
      Name                Description
                                                  Date    Date        Partner              ($)

                    Provides grants for
Khyber              restoration of damaged
Pakhtunkhwa,        infrastructure and
FATA, and           disrupted services,
                                                  7/10    12/15   World Bank              25,000,000
Balochistan         improvement of
Multi-Donor Trust   government service
     ‡
Fund                delivery, and maintenance
                    of community livelihoods

                                                                  Provincial
                                                                  Reconstruction,
Khyber              Supports the
                                                                  Rehabilitation and
Pakhtunkhwa         reconstruction and
                                                  3/10    12/14   Settlement Authority   103,683,047
Reconstruction      recovery of conflict-
                                                                  (PaRRSA),
Program             affected districts
                                                                  Government of
                                                                  Khyber Pakhtunkhwa

Malakand and        Provides housing damage                       PaRRSA,
FATA Housing        assistance through a cash     6/10    9/12    Government of           65,000,000
Support Program†    transfer                                      Khyber Pakhtunkhwa

Monitoring and
Assessment of       Monitors USAID-funded
                                                  10/10   3/12            ***               204,284
Balochistan Flood   flood assistance activities
Relief Efforts

Monitoring and
Assessment of
USAID’s Punjab
                    Monitors USAID-funded
and Khyber                                        10/10   3/12            ***               487,518
                    flood assistance activities
Pakhtunkhwa
Flood Relief
Efforts

Monitoring and
Assessment of
                    Monitors USAID-funded
USAID’s Sindh                                     10/10   3/12            ***               192,171
                    flood assistance activities
Flood Relief
Efforts




                                                                                                 21
                                                       Start   End         Implementing           Funding
       Name                     Description
                                                       Date    Date          Partner                ($)

                          Supports monitoring and
Monitoring and            verification of USAID
                                                       12/09   2/12              ***                2,340,000
Evaluation – FATA         investments in road and
                          electricity infrastructure

                          Supports monitoring and
Monitoring and
                          verification of USAID
Evaluation –                                           4/10    2/12              ***                3,760,000
                          investments in small-scale
Malakand
                          infrastructure

                          Supports conditions for
Pakistan                  stability and development
                                                                        USAID Office of
Transition                in conflict-prone and        11/07   12/15                             148,576,547
                                                                        Transition Initiatives
Initiative                other priority areas of
                          Pakistan

Provincial
Reconstruction,           Increases capacity for
Rehabilitation and        management and
Settlement                oversight of stabilization   2/10    1/14              ***                1,527,398
Authority                 and development
Capacity Building         activities
Project

Radio
Transmitters in
                          Provides radio
FATA and Khyber                                        6/10    6/12              ***                8,656,471
                          transmitters
Pakhtunkhwa
Project

Source: USAID/Pakistan.

Note: A triple asterisk (***) indicates that the name of a USAID implementing partner have been withheld for
security reasons.
†   USAID has fully disbursed assistance dollars to BISP, the Citizens’ Damage Compensation Fund, and the
    Malakand and FATA Housing Support Program, but continues to monitor rupee disbursements to beneficiaries.
‡
    USAID has also fully disbursed assistance dollars to the Khyber Pakhtunkhwa, FATA, and Balochistan Multi-
    Donor Trust Fund but continues to monitor project implementation activities.


As of March 31, 2012, USAID reported that 410 kilometers of road had been constructed or repaired
with U.S. Government assistance. USAID also reported the following other examples of progress and
success in its stabilization activities:

                                                                                                          22
   USAID’s FATA Secretariat Support Project is providing support and technical assistance to reinforce
   the legitimacy of local authorities and strengthen governance in the region. The project has begun
   developing a legal framework and model financial plan for local governments in FATA. The project
   has also started developing a management plan for a new directorate, a monitoring and evaluation
   plan for FATA’s government, and a training program for the Secretariat’s employees. Thirty-eight
   project staff members currently work in the Secretariat alongside Secretariat employees.

   During the quarter, the FATA Secretariat Support Project increased the Secretariat’s information
   technology capacity by setting up intranet and Internet facilities and providing network connectivity
   to FATA agencies. The project also staffed the FATA Information Directorate, started to develop
   automation software, and reviewed the FATA Government’s communication strategy.

   USAID’s Khyber Pakhtunkhwa Reconstruction Program continued to support reconstruction and
   recovery of infrastructure in conflict-affected districts of the province. USAID’s implementing
   partner completed five schools and provided the first installment of school supplies, including desks,
   benches, science lab equipment, math kits, and student bags, during the reporting period.

   The FATA Child Health Project, which was launched in cooperation with the FATA Health
   Directorate in December 2006, will end in December 2012. The project aims to increase the use of
   key services and the adoption of behaviors that support the health and development of children.
   During the quarter, the project reached:
       46,300 children and 4,800 mothers through 383 health immunization and nutrition events.
       17,800 people, more than half of whom were female, through 121 mobile health unit visits.
       20,963 female and 11,477 male participants through 2,877 gender-focused, community health
       awareness sessions.
       134 female health workers through training on community integrated management of neonatal
       and childhood illness.
       51 people through training on maternal and newborn care.

   USAID’s new Integrated Health Program will build on FATA Child Health Project successes and
   continue to work to improve the lives of children in the province.

USAID reported problems that continue to affect the implementation of its stabilization programs:

   In South Waziristan, electrification and water infrastructure projects continue to be affected by
   limited technical capacity. USAID personnel are providing the FATA Secretariat and its contractor
   with technical support to address these deficiencies and accelerate progress.

   The lack of women’s participation in development programs continues to be a challenge.
   USAID/Pakistan recently launched a gender analysis of the FATA-Khyber Pakhtunkhwa stabilization


                                                                                                      23
    portfolio in light of new Agency policies regarding gender, stabilization, and countering violent
    extremism.

NAS. NAS has five programs that support improved security, legal reforms, and counternarcotics
efforts. Aside from the limited direct assistance it provides to Pakistani NGOs to reduce demand for
drugs, NAS implements its projects in partnership with the Government of Pakistan. Partners include
the Ministry of Narcotics Control, Ministry of Interior, FATA Secretariat, Pakistani police, and civilian
law enforcement agencies.

NAS reported the following developments in its current programs:

    Rule of Law Program. During the quarter, the resident legal advisor conducted a trial advocacy
    program in Karachi for 30 prosecutors from Sindh Province, 5 of whom were women. In Islamabad,
    the resident legal advisor also held a trial advocacy program for 24 prosecutors and 7 expert
    witnesses, as well as a separate trial advocacy program for corruption prosecutors in
    Islamabad. The program also sponsored three Pakistani prosecutors’ attendance at the Department
    of Justice’s National Advocacy Center in South Carolina, and three other prosecutors’ attendance at
    the Centre of Excellence-Defence Against Terrorism’s course on fighting the financial dimensions of
    terrorism in Ankara, Turkey.

    Police Program. During the quarter, 667 officials from across Pakistan were trained under the
    program. This total includes 72 law enforcement personnel from Khyber Pakhtunkhwa and
    Balochistan who completed basic training and received instruction on the conduct of drug
    investigations. NAS also delivered $3.5 million worth of equipment to Pakistani law enforcement
    agencies.

    Aviation Program. The NAS-supported Air Wing continued to increase support to Pakistani police,
    including support for counterterrorism operations, during the quarter. The Air Wing was called
    upon to support medical and casualty evacuations following an ambush of Frontier Corps troops. In
    total, the Air Wing flew 830.5 hours during the quarter.

    Infrastructure Program. NAS is assisting with the construction of border outposts for the Frontier
    Corps in Khyber Pakhtunkhwa. Construction work on 8 outposts has been completed, and work
    on the remaining 28 is in progress. NAS is also working to improve living accommodations for
    Levies Force personnel and has completed three related projects in FATA.

    Counternarcotics. New project agreements were signed with three NGOs: (1) New Horizons Care
    Center in Karachi will provide treatment and rehabilitation for 1,800 addicts in the coming year; (2)
    the DOST Foundation’s Rehabilitation of Street Children Program will sensitize 3,500 youth to the
    dangers of drugs, and another 180 young addicts will undergo treatment and rehabilitation; and (3)
    Neengar Society in Multan will use puppet theater to warn against the dangers of drugs for
    thousands of youth in Punjab and Khyber Pakhtunkhwa. In addition to supporting efforts in these


                                                                                                      24
    areas, NAS began providing operational support to the Anti-Narcotics Force’s Special Investigative
    Cell in Islamabad.

NAS also reported that feedback on training provided to Pakistani police, prosecutors, and other law
enforcement agency personnel has been positive and that demand for future instruction is growing.
NAS indicated that infrastructure development projects and commodity assistance to Pakistan police
and other law enforcement agencies have contributed to the effectiveness of the recipient agencies in
enforcing law and order and countering militancy and extremism in the country.

NAS reported that travel restrictions, delays in the clearance of planning documents, and the difficult
security environment add complexity to the operating environment. Although NAS’s Pakistani staff
members have been harassed by representatives of the Government of Pakistan in the past, no incidents
of harassment were reported during the quarter. However, some infrastructure projects have faced
planning difficulties and procedural complications, and NAS is engaging the provincial bureaucracy in
resolving these issues.

ECON. The Economic Section of the Embassy supports U.S. stabilization efforts through the
Biosecurity Engagement Program. The program promotes the safe, secure, and responsible use of
biological materials that are at risk of accidental release or intentional misuse. Program objectives
include supporting best practices in biorisk management, improving laboratory capacity to conduct
disease surveillance and diagnostics, and fostering international scientific partnerships through
collaborative research and development.

RSO. RSO contributes to improved security and legal institutions in Pakistan through antiterrorism
assistance. RSO provides a full range of tactical and investigative courses and support to increase the
capacity and capabilities of Pakistani law enforcement officials from all of its provinces and the Frontier
Constabulary. During the quarter, RSO delivered five training courses to 106 officers.

RSO noted that obtaining visas for instructors in a timely manner is difficult. Several courses have been
postponed because instructors were unable to obtain visas by the scheduled date of instruction. In
addition, equipment grants have not been distributed since March 2011 because of a lack of Government
of Pakistan assistance importing the grant equipment.

USIP. USIP supports stabilization in Pakistan by promoting religious tolerance and peaceful interfaith
dialogue while countering extremist messaging. USIP is working to accomplish associated objectives
through three separate but related activities: (1) a priority grant competition to support civil society
capacity building for countering extremism and promoting peace and religious tolerance, (2) countering
extremist voices through the media, and (3) supporting policy research and analysis on religious
intolerance and extremism.

During the reporting period, USIP awarded three grants to build civil society capacity for countering
extremism and promoting peace and religious tolerance. These grants, which fund activities through
February 2013, were awarded to two local and one U.S.-based NGO.
                                                                                                        25
USIP also awarded research contracts in January and February 2012. The first went to a local freelance
journalist to outline the causes of violence in Karachi, examine how terrorist organizations take
advantage of urban unrest, identify systemic factors that prevent the cessation of violence and
prosecution of its perpetrators, and make policy recommendations on how to check the violence in the
run-up to Pakistan’s general elections. The recipient of the second research contract, Forman Christian
College, is to develop a framework for youth policy and deradicalization in Pakistan by examining
applicable studies, conducting field research, comparing existing policy documents, and assessing policy
implementation efforts.

USIP listed vetting and conducting due diligence of potential grantee organizations as an implementation
challenge during the reporting period. To perform these tasks, USIP is relying on its network of civil
society organizations, peer donor agencies, and other contacts, including the Embassy and USAID
mission. In addition to ensuring that the grantee organizations have viable internal financial management
systems and capacity to carry out their obligations in a transparent and accountable manner, USIP is
committed to conducting strict financial monitoring.


Health

The quality of basic health services is uneven in Pakistan, with the rural population particularly
underserved. Improving the quality of care is complicated by the country’s growing population and by
the ongoing devolution of health services to the provinces. Pakistan’s high fertility rate is expected to
more than double the population by 2050, further straining the health system. The provinces, which do
not yet have the financial and human resources to assume added health-care responsibilities, are
negotiating with the federal government for adequate funding, skilled staff, and management and
accountability systems at the provincial level. Pakistan is one of four countries still struggling to
eradicate polio; of the four, Pakistan is the only one with an increasing incidence of the disease.

USAID supports the Government of Pakistan in developing the capacity to deliver, with the assistance of
NGOs and contractors, high-quality, cost-effective health interventions. Examples include efforts to
reduce infant mortality and prevent maternal deaths.

USAID has 12 programs under way to support health services in Pakistan (Table 6). These programs
focus on renovation and reconstruction of facilities, family planning, and polio eradication. In addition,
USAID will be supporting a Demographic and Health Survey in Pakistan to collect and compile
household information to inform national health indicators. During the reporting period, USAID
designed a new program to consolidate efforts and provide comprehensive technical assistance
nationally while focusing on Sindh Province. USAID expects to award this integrated health program
within the next 4 months.




                                                                                                       26
             Table 6. USAID Health Programs as of March 31, 2012 (Unaudited)

                                                  Start    End         Implementing        Funding
      Name                 Description
                                                  Date     Date          Partner             ($)

                    Supports a survey to
Demographic         collect health status data                       Macro International
                                                  12/11    12/15                             3,700,000
Health Survey       and statistics for national                      Inc.
                    indicators

                    Assists with the
                    devolution of nearly all
Health Care
                    public health
Management                                        1/11      1/14     John Snow Inc.          3,000,000
                    responsibilities from the
Project
                    federal to provincial
                    ministries

                    Supports the
Family Health
                    diversification of family     6/07      6/12     Population Council     48,424,566
Project
                    planning activities

                    Develops and strengthens
Health Services
                    institutional capacity in                        Pakistan Health
Academy Support                                   7/08     12/12                             4,101,891
                    public health training and                       Services Academy
Project
                    research

                    Provides logistical
                    support for the
Health Supplies
                    distribution of                       Renewed
Distribution                                      9/08               John Snow Inc.         10,242,088
                    contraceptives to                     annually
Project
                    provincial health
                    ministries

                    Procures contraceptives
Health Supplies
                    and vaccines for national     4/10      4/15     Various                78,520,953
Project
                    distribution

Jacobabad Civil
                    Renovates this hospital       10/10    10/13     CDM                    11,049,000
Hospital Project

Jinnah Post-        Reconstructs
                                                                     CDM Constructors
Graduate Medical    the obstetrics and            5/10      4/13                             5,629,069
                                                                     Inc. (CDM)
Center Project      gynecology/fistula ward




                                                                                                  27
                                                        Start    End         Implementing         Funding
      Name                      Description
                                                        Date     Date          Partner              ($)

                          Supports the National
                          Nutrition Survey, which
Nutrition                 will identify links between
Assessment                nutrition and family          4/11      4/12     Aga Khan University       588,974
Project                   planning and determine
                          the level of vaccination
                          coverage in Pakistan

                                                                           UNICEF and the
Polio Vaccination         Conducts annual polio                 Renewed
                                                        1/03               World Health            22,370,271
Program                   eradication campaigns                 annually
                                                                           Organization (WHO)

                                                                           Koninklijk
Tuberculosis              Conducts a survey of
                                                        6/10      3/12     Nederlandsche            4,570,000
Survey Program            tuberculosis prevalence
                                                                           Centrale Vereeniging

Transfer to
Centers for
Disease Control                                                            CDC, U.S.
and Prevention            Provides training to                             Department of
                                                        8/05      3/13                              5,683,676
(CDC) – Field             epidemiologists                                  Health and Human
Epidemiology and                                                           Services
Laboratory
Training Program

Source: USAID/Pakistan.


As of March 31, 2012, USAID reported that ten polio immunization campaigns had been completed.
USAID also reported the following examples of progress and success in its health programs:

    In January, the Government of Pakistan, UNICEF, and WHO jointly conducted a national polio
    campaign targeting over 32 million children aged 5 and under. A subnational polio campaign was
    conducted in March 2012 in 100 districts and towns, targeting 23.5 million children.

    The Family Health Project held seminars in Peshawar, Karachi, and Lahore entitled ―The Birth Space
    Paradigm.‖ The purpose was to present results of the project, turn over communications and
    training materials to the provincial governments, and create action plans to use the materials
    produced by the project.

    USAID’s Health Care Management Project provided technical assistance to the Government of
    Sindh to develop a health sector reform unit, which is intended to play a leading role in planning and

                                                                                                         28
    enacting health reforms. In addition, the project is providing technical assistance to develop a
    human resources strategy and a health communications strategy for Sindh.

    The Pakistan Health Services Academy, with USAID support, developed a health information
    resource center and a new computer lab, which were inaugurated by the Prime Minister as part of
    the National Health Complex on February 27, 2012.

    Following a month of consultations with the Government of Pakistan and private sector providers of
    contraceptives, USAID’s Health Supplies Distribution Project held a contraceptive procurement
    seminar on January 26, 2012. Through this exercise, USAID is helping build the Government of
    Pakistan’s capacity to quantify its need for contraceptives and then procure them. More than 120
    provincial logisticians, policy makers, and senior-level managers from the government and private
    sector attended the seminar, in addition to the provincial secretaries of health and welfare programs
    or their representatives. USAID will provide $20 million worth of contraceptives of the
    $30.4 million needed in 2012.

    USAID’s Tuberculosis Survey Program conducted a 10-day, train-the-trainer workshop for 14
    master trainers from around the country on fluorescent light-emitting diode (LED) microscopy.
    Workshop participants will train other laboratory technicians in their respective areas. This training
    program complements USAID/Pakistan’s provision of 220 LED microscopes and $7.4 million worth
    of other equipment to 70 flood-affected districts. LED microscopes are more sensitive than
    conventional microscopes and can improve tuberculosis diagnosis.

    Fieldwork for the USAID-funded Tuberculosis Prevalence Survey, which collected data on 133,000
    adults in all four provinces, has been completed. The draft report of the survey was shared with the
    Government of Pakistan, provincial authorities, and other stakeholders, including WHO, in
    March 2012. This is the first such survey in 25 years and will reveal the precise burden of
    tuberculosis in the country.

USAID also reported health program implementation challenges associated with changes in the
administration and management of government health systems in Pakistan. With the devolution of the
Ministry of Health, adequate financing and clear roles and responsibilities at the provincial level have yet
to be resolved. The lack of organization after devolution remains problematic for the Pakistani health-
care system.


Education

Pakistan’s education system faces serious challenges. According to the U.N. Educational, Scientific and
Cultural Organization’s 2011 Education for All Global Monitoring Report, Pakistan ranks 119 out of 127
countries on the Education for All Development Index. Pakistan’s schooling system is beset by chronic
underfinancing, poor quality, and corruption, resulting in some of the worst and most unequal results on
education indicators in South Asia. At present, only 56 percent of school-aged children are enrolled in

                                                                                                         29
primary school. Those children who do attend school encounter poorly equipped classrooms and
teachers who are ill-prepared for the job. Only 49 percent of children complete Grade 5, and of those
in Grade 5, less than half can read a simple sentence. In higher education, Pakistan remains far behind
most of its neighbors in terms of quality, access, and capacity. Higher education in Pakistan is
characterized by a lack of productivity-enhancing technologies, and university graduates are not always
equipped to lead the country’s growth. In 2011, only 7.8 percent of 17- to 23-year-olds in Pakistan had
access to higher education. This is a significantly smaller proportion than in Nepal (10 percent) and
comparable to rates in sub-Saharan Africa.

The United States aims to improve access to high-quality education through its assistance in basic and
higher education. These efforts include repairing and rebuilding schools and colleges, providing access
to high-quality teaching and learning materials, improving teacher preparation, strengthening the reading
skills of primary-grade students, improving provincial and district management and policies, developing
university scholarships and faculty exchanges in applied research in key disciplines, and fostering effective
oversight of education by civil society. USAID and PAS support programs for educational improvement.

During the reporting period, USAID had nine education programs under way, including one transfer of
funds to another agency (Table 7). These programs focus on improvement in basic and higher education
by providing training for teachers, scholarships for students, and support for reconstruction and
renovation of schools.

           Table 7. USAID Education Programs as of March 31, 2012 (Unaudited)

                                                   Start      End          Implementing           Funding
       Name                  Description
                                                   Date       Date           Partner                ($)

                       Provides interactive
                       teaching and learning for
Children's             children through a                               Rafi Peer Theatre
                                                    5/10       5/14                                 10,000,000
Television Project     television program and                           Workshop
                       associated community-
                       based campaigns

Earthquake-
Damaged Schools        Reconstructs earthquake-
                                                   10/06       4/12     Smith Construction         138,807,031
Reconstruction         damaged schools
Program

                       Trains primary and
Education Quality      middle school teachers                           American Institutes
                                                   10/07      10/12                                 95,314,430
and Access Project     and renovates conflict-                          for Research
                       damaged schools




                                                                                                          30
                                                       Start    End         Implementing        Funding
      Name                      Description
                                                       Date     Date          Partner             ($)

                          Provides merit and need-
                          based scholarships for
                          students to study at
Higher Education
                          Pakistani higher education                      Higher Education
Commission                                             3/10     2012                              93,000,000
                          institutions; in the past,                      Commission
Support
                          provided budget support
                          to the Higher Education
                          Commission

Teacher Education         Provides preservice                             Educational
                                                       5/11      9/13                             37,000,000
Project                   education for teachers                          Development Center

                          Supports early grade
Sindh Basic               reading program,
                                                                          Sindh Department of
Education                 provides technical           9/11      9/16                             86,000,000
                                                                          Education
Program                   assistance, and supports
                          reconstruction of schools

U.S.-Pakistan             Provides opportunities
Science and               for cooperation between
                                                               Renewed    National Academy of
Technology                Pakistan and the United      9/05                                        7,502,034
                                                               annually   Sciences
Cooperative               States in science and
Program                   technology

                          Supports construction of
Women's Hostel            a 360-bed women’s                               Forman Christian
                                                       7/11      8/14                              7,300,000
Project                   dormitory at Forman                             College
                          Christian College

                          Provides scholarships to                        PAS and United
Transfer to
                          Pakistani graduate                   Renewed    States Educational
PAS – Fulbright                                        9/04                                      132,000,000
                          students to study at U.S.            annually   Foundation in
Scholar Program
                          universities                                    Pakistan

Source: USAID/Pakistan.


As of March 31, 2012, USAID reported that U.S. Government-supported education programs had
strengthened the skills of 2,495 teachers, educators, teaching assistants, and tertiary faculty. USAID also
reported the following examples of accomplishments in its portfolio of education projects:

    The Higher Education Commission (HEC) created a 4-year bachelor’s degree and a 2-year
    associate’s degree in education with USAID support. These degree programs are now offered at
    universities and colleges in every province. The introduction of the associate’s degree concept has
                                                                                                        31
   proven so successful that HEC has decided to offer associate degrees in all subjects at all
   universities. This year, USAID is working with universities to develop additional courses of study
   for these degrees.

   USAID has worked with HEC to introduce need-based scholarships, which had not previously been
   given in Pakistan. Since 2004, 1,807 such scholarships have been awarded, and 1,407 scholarship
   recipients have graduated. Four hundred students are currently receiving need-based scholarships.
   In addition, through USAID assistance, 11 universities established financial aid offices and were
   trained in fundraising for their own scholarship programs. Today, universities across Pakistan have
   financial aid offices based on the model USAID established with HEC.

   Technical assistance in teacher education and professional development has placed the issue of
   qualified teachers on the national agenda. Preservice standards to professionalize the teaching force,
   developed with USAID assistance, have now been adopted in all provinces.

   The Teacher Education Project sponsored a 2-day national consultative session in Islamabad at
   which all of the provincial governments as well as the program’s university partners pledged to
   continue the reforms introduced by the USAID project. National consultative sessions like this one,
   which was attended by 60 education sector representatives, have ensured Government of Pakistan
   ownership of the reforms introduced through USAID assistance.

   USAID continues to support ―Sim Sim Hamara,‖ an educational television program for children,
   through the Pakistan Children’s Television Project. The weekly program, which began airing in
   December 2011, introduces children to basic language and math skills while teaching tolerance and
   mutual respect. To date, the program has aired only in Urdu, but work is under way to broadcast it
   in four other languages spoken in Pakistan within the next 6 months. Thirteen television episodes
   have aired to date.

USAID also reported challenges to the implementation of its education projects:

   In FY 2011, constitutional reforms were signed into law, leading to the decentralization of Pakistan’s
   basic education sector. Schools at all levels are now the responsibility of local governments and
   districts. This devolution of authority is expected to improve access to and quality of education and
   provide opportunities to improve governance, reinforce local curriculums, increase monitoring of
   educational performance, and strengthen accreditation. However, local capacity to manage these
   responsibilities varies greatly, and newly established districts with very limited management capacity
   will require continued technical assistance to meet the challenges facing them.

   In higher education, uncertainty about the governance and budgetary situation, along with political
   instability and the deteriorating security situation, have created challenges for HEC and threaten to
   reverse improvements in quality, undercut faculty retention, and reduce student enrollment—all of
   which could, in turn, undermine the sector’s impact on economic and social development.

                                                                                                      32
PAS. PAS focuses on maintaining exchange programs and expanding in-country English language and
alumni programs. PAS exchange programs are largely implemented through U.S.-based, not-for-profit
institutions. However, outreach and recruiting activities are conducted with a wide variety of Pakistani
Government entities, media, educational institutions, and NGOs. The United States Educational
Foundation in Pakistan is heavily engaged in the recruitment and selection of participants for academic
and professional programs.

During the first 3 months of 2012, PAS reported an increase in the number of applications for academic
programs scheduled to begin in the fall. PAS reported that it plans to send approximately 200 master’s
degree and Ph.D. candidates to U.S. institutions this year through the Fulbright Program, the highest
number in 3 years. Interviews for academic programs including Fulbright recently took place in
Islamabad and Karachi.

PAS continues to work on the establishment of an office and professional staff for the nationwide
Pakistani-led alumni association. In addition, PAS issued calls for proposals for several university
partnership programs. These 5-year programs will provide $1,000,000 grants to U.S. institutions to
partner with selected Pakistani universities to create faculty development programs, staff and student
exchanges, joint online and digital video conference classes, joint research projects, and other activities.

Outside evaluations of PAS’s Global Undergraduate Exchange Program, which provides fellowships for
one semester of undergraduate study in the United States to emerging student leaders from
underrepresented sectors in Pakistan, continued during the reporting period and are scheduled for
completion in the fall of 2012. One hundred students from Pakistan participated in the program’s
January 2012 orientation in Washington, D.C.

PAS noted one major challenge during the reporting period. According to PAS, continued harassment
of Pakistani alumni, Pakistani implementing organizations, and attendees at PAS-sponsored events by
domestic security agencies impede efforts within Pakistan. PAS works to highlight the open nature of its
programming but reports that such continuing harassment will harm its programs in the long run.


Cross-Cutting Priorities: Good Governance, Gender Equity, and
Greater Transparency

The cross-cutting priorities of U.S. Government assistance—improved governance, gender equity, and
greater transparency—are integrated, as appropriate, into programs in the sectors discussed in the
previous sections of this report. The U.S. Government also supports programs focused exclusively on
these areas.

USAID has ten programs designed to improve governance, gender equity, and transparency (Table 8),
including one transfer of funds to another agency. USAID’s programs in this category of assistance
include a hotline for the public to register complaints, support to organizations that oppose domestic
                                                                                                         33
violence and gender discrimination, and broader civil society support. In addition to its ongoing
programs, USAID is planning a program to monitor the upcoming national elections.

   Table 8. USAID Good Governance, Gender Equity, and Transparency Programs as of
                            March 31, 2012 (Unaudited)

                                                   Start   End      Implementing           Funding
      Name                 Description
                                                   Date    Date       Partner                ($)

Anti-Fraud           Allows citizens to report
Hotline Project /    waste, fraud, and abuse of                   Transparency
                                                   1/09    9/15                              2,150,000
Anti-Corruption      U.S. Government funds                        International-Pakistan
Project              through a free hotline

                     Makes small grants to civil
                                                                  Trust for Democratic
Citizens' Voice      society projects that
                                                   5/11    9/15   Education and             10,000,000
Project              support U.S. foreign
                                                                  Accountability
                     assistance objectives

Construction of
Pakistan Institute   Funds building
                                                   3/10    6/12   Habib Rafiq               10,703,099
of Parliamentary     construction
Services Building

                     Makes small grants to
Gender Equity        organizations opposing
                                                   8/10    8/15   Aurat Foundation          14,368,429
Program              domestic violence and
                     gender discrimination

Independent          Provides missionwide
Monitoring and       support for monitoring,                      Management Sciences
                                                   6/11    6/16                              7,000,000
Evaluation           evaluation, and the                          International
Contract             PakInfo system

                                                                  Provincial
Municipal Services   Improves delivery of basic
                                                                  Government’s
Program, Sindh       municipal services,
                                                   7/10    7/15   Planning and             119,924,194
and Khyber           including water in
                                                                  Development
Pakhtunkhwa          Jacobabad and Peshawar
                                                                  Departments

                     Improves the
Political Parties    transparency and
                                                                  National Democratic
Development          accountability of Pakistani   7/11    7/15                              4,498,790
                                                                  Institute
Project              political parties to their
                     constituents




                                                                                                   34
                                                       Start   End      Implementing          Funding
       Name                     Description
                                                       Date    Date       Partner               ($)

                          Conducts three
Political Polling                                                     International
                          nationwide public            11/10   1/12                              500,000
Project                                                               Republican Institute
                          perception polls

Small Grants              Makes small awards for
Program /                 community initiatives that                  National Rural
                                                       8/10    8/15                           14,000,000
Ambassador's              support U.S. foreign                        Support Programme
Fund                      assistance objectives

                          Conducts exchange
Transfer to PAS –         programs and in-country
                                                                      DOS Bureau of
Exchanges /               English language
                                                       7/05    2015   Educational and           9,223,500
Strategic                 instruction that support
                                                                      Cultural Affairs
Communications            strategic communications
                          objectives

Source: USAID/Pakistan.


As of March 31, 2012, USAID reported that 160 local NGOS had received support through U.S.
Government assistance. USAID also provided the following examples of progress and success in its
governance and gender-equity assistance programs:

    To commemorate International Women’s Day on March 8, the Gender Equity Program launched a
    series of radio messages affirming women’s integral role in building Pakistan’s society. Program-
    sponsored public service announcements also targeted the serious problem of gender-based
    violence. In addition, during the reporting period, the program initiated stakeholder dialogues on
    Pakistan’s national strategy to combat gender-based violence, which was developed late in 2011. As
    part of this outreach effort, the program convened its third National Advisory Forum and sought
    guidance in implementing the national strategy. All four provincial departments devoted to women’s
    development were represented at the conference, and all provinces have now drafted plans to
    implement the strategy at the provincial level. So far, the program has approved 76 grants for a
    total of $4 million. An additional 13 applications (totaling $3 million) were under review at the end
    of the reporting period.

    In January, USAID held stakeholder meetings in Karachi and Peshawar with the provincial and local
    governments for the Municipal Services Program. Reports of USAID-funded assessments were
    presented and discussed. Other donors, including the Asian Development Bank, attended these
    meetings to identify synergies and avoid duplication of efforts.

    The Pakistan Institute of Parliamentary Services Building, constructed by USAID for conducting
    parliamentary training, is to be completed in June 2012. This state-of-the-art structure will be

                                                                                                      35
    powered by the largest on-grid solar power station installed on a building in Pakistan.

    The Political Polling Project concluded in January 2012 after completing three national public opinion
    polls and two rounds of focus group discussions. Poll results were open to all political parties and
    encouraged a greater connection between the views of the people and those vying to represent
    them. The project also helped build the capacity of an independent Pakistani public opinion research
    organization.

    To date, 56 awards totaling $7 million have been executed under USAID’s Small Grants
    Program/Ambassador’s Fund. Communities have praised these investments, noting that they have
    responded to some of their most urgent priorities for agriculture, education, and water.

USAID noted two principal challenges in implementing programs for improved gender equity and
governance: (1) women’s equal participation in the full range of development programs and (2) the
timing of Pakistan’s next national elections and the first civilian-to-civilian transfer of power remains
uncertain. USAID is working closely with other U.S. Government entities to ensure that appropriate
plans are in place to prepare for and monitor the upcoming national elections.

PAS. As part of the U.S. Embassy’s strategic communication efforts, PAS is expanding the in-country
English Language Access Program. As of March 2012, this after-school program had provided English
instruction to 7,000 Pakistani students between the ages of 14 and 15. Using Pakistani interlocutors, the
program is expanding into regions of strategic interest, including Quetta and other regions of
Balochistan, as well as Khyber Pakhtunkhwa.


Assistance to Pakistani Institutions

To ensure greater responsiveness and increase the sustainability of civilian programs, the United States
plans to implement more programs through Pakistani institutions, including national and provincial
governments and NGOs.7 The purpose of this shift is to:

    Align programs with locally identified priorities.

    Build Pakistanis’ sense of ownership of programs.

    Build Pakistani institutional and leadership capacity for better fiscal management.

    Promote decentralization to engage provincial and local partners and beneficiaries more actively.


7
 The Enhanced Partnership with Pakistan Act of 2009 encourages appropriate use of Pakistani firms and NGOs to
implement the programs authorized under Title I of the act (Section 101(c)(3)).


                                                                                                          36
        Deliver on-budget assistance8 to promote transparency, harmonization, and better budget planning
        by the Government of Pakistan.

        Reduce costs.

USAID made 61 awards totaling more than $1.268 billion during FY 2010, and 42 awards totaling
$439.5 million during FY 2011 to Pakistani institutions. USAID reported making 30 such awards totaling
approximately $357.6 million during FY 2012 (Table 9). Awards made by USAID in FY 2012 fall into
one of the following three categories: direct funding for government projects, awards to Pakistani
NGOs, and awards to Pakistani private sector entities.

          Table 9. Assistance to Pakistani Institutions Since October 1, 2011 (Unaudited)

                                                                                  Number of         Value ($) of
    Implementing Partner, Project
                                                                                   Awards           Obligations

    Direct Funding for Government Projects                                              24          339,249,449

    FATA Secretariat, Barang Road and Silay Patay Bridge in Bajaur                       1              2,000,000
    *
    FATA Secretariat, Ghulan Khan-Bannu Road                                             1           106,310,673

    FATA Secretariat, Jandola Bridge reconstruction                                      1              4,125,425

    FATA Secretariat, Jandola-Sararogha Road, Repair of bridges                          1              1,158,820

    FATA Secretariat, Kaur-Wana Road, Repair of flood damage                             1              6,254,588

    FATA Secretariat, Kundiwam Dam and Dhana Irrigation Projects, SWAT                   1             18,000,000

    FATA Secretariat, Sararogha-Janjal Road                                              1             19,557,582

    FATA Secretariat, Sararogha-Makeen Road, Repair of bridges                           1              6,939,654

    FATA Secretariat, Tank-Makeen Road, Repair of flood damage                           1              4,090,215

    FATA Secretariat, Tank-Makeen Road, Ahmad WAM Tunnel                                 1                279,740

    FATA Secretariat, Tank-Makeen Road, Kotkai Tunnel/Bypass                             1              1,651,558




8
 Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as possible is
expected to help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund and
raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improve budget planning and cash-flow
management.


                                                                                                                   37
                                                                           Number of   Value ($) of
Implementing Partner, Project
                                                                            Awards     Obligations

FATA Secretariat, 132 kilovolt-ampere transmission line from
                                                                                1         2,400,000
Gomal Zam Dam
*
Government of Khyber Pakhtunkhwa, Municipal Services Program                    1        55,000,000

*
PaRRSA, Capacity building                                                       1         2,600,000

*
PaRRSA, Construction of integrated government complex                           1         2,500,000

*
PaRRSA, Flood-damaged infrastructure: Amandara headworks                        1         6,564,000

*
PaRRSA, Flood-damaged infrastructure: Khwazakhela Bridge                        1         4,980,000

*
PaRRSA, Flood-damaged infrastructure: Munda headworks                           1         8,495,000

*
 PaRRSA, Malakand Reconstruction and Recovery Program, Construction of
                                                                                1         1,342,194
schools
*
 PaRRSA, Malakand Reconstruction and Recovery Program, Health
                                                                                1         2,000,000
recovery and supplies
*
 PaRRSA, Malakand Reconstruction and Recovery Program, Water and
                                                                                1         3,000,000
sanitation systems

Sindh Department of Education, Sindh Basic Education Program,
                                                                                1        20,000,000
Construction of schools

Sindh Department of Education, Sindh Basic Education Program, Reforms to
                                                                                1        20,000,000
upgrade and merge schools

WAPDA, Gomal Zam Multipurpose Dam Project                                       1        40,000,000

Awards to Pakistani NGOs                                                        4       13,662,737

Transparency International-Pakistan, Anti-Fraud Hotline                         1           360,000

*
 Rural Support Programmes Network, Emergency relief and early recovery
                                                                                1         1,502,737
for Pakistan flood affectees

*
Dairy and Rural Development Foundation, Dairy Project                           1         1,500,000


Agribusiness Support Fund, USAID’s Agribusiness Project                         1        10,300,000

Awards to Pakistani Private Sector Entities                                     2        4,672,612




                                                                                                      38
                                                                                    Number of   Value ($) of
    Implementing Partner, Project
                                                                                     Awards     Obligations

    *
     Associates in Development, Monitoring and evaluation for
                                                                                         1         3,446,537
    FATA Quick Impact Projects
    *
     Habib Rafiq International (Pvt.) Limited, Construction of Pakistan Institute
                                                                                         1         1,226,075
    of Parliamentary Services Building

    Total                                                                               30      357,584,798

Source: USAID/Pakistan.
*
        Awards made to Pakistani institutions from January 1 to March 12, 2012.


Prior to disbursing funds, USAID’s Office of Financial Management performs preaward assessments of all
prospective partner organizations. The assessments examine organizational and management structure,
accounting, financial management systems, internal control, technical capabilities, and quality assurance
capabilities, as well as organizations’ policies, procedures, and practices for effective and efficient
management of USAID/Pakistan resources. To date, USAID has completed 115 preaward assessments.




                                                                                                               39
Staffing
The U.S. Mission in Pakistan—including USAID and Embassy components—increased staffing levels in
Islamabad and Karachi, maintained its staffing level at the regional office in Peshawar, but saw staff size
decrease in Lahore.

As shown in Table 10, USAID reported a total of 230 staff (47 U.S. direct hires and 183 others) as of
March 31, 2012. USAID mission management was unable to fill all vacancies during the quarter because
of limited availability of office facilities. As the temporary USAID office building nears completion, the
USAID mission plans to expand recruitment to fulfill its responsibilities without relying on temporary-
duty employees or on support from Washington, D.C. According to the Pakistan Assistance Strategy
Report, USAID, as the lead and largest manager of assistance funds among U.S. Government agencies,
will need to increase its project management, legal, financial management, and procurement staff
significantly. With an FY 2012 target of 296 staff, USAID/Pakistan remains understaffed by 66 positions.

                         Table 10. USAID Staffing in Pakistan as of March 31, 2012

                                                                                            Change From
          Category            Islamabad      Peshawar*       Lahore       Karachi   Total   December 31,
                                                                                                2011
     U.S. direct hire               41             3             3            0       47         +1
     U.S. personal services
                                    15             4             0            1       20          -1
     contractors

     Third-country
                                     9             1             0            0       10         +1
     nationals
     Foreign Service
     Nationals                    109             22            10            5      146         +7
     (Pakistani staff)
     Eligible family
                                     5             0             0            0        5          0
     members
     Long-term
                                     2             0             0            0        2          0
     temporary-duty staff†

    Total Staff                   181             30            13            6      230         +8

    Staff Target 2012                                                                296

    Staff Shortfall                                                                   66

Source: USAID/Pakistan.
*      Includes staff assigned to Peshawar but currently residing in Islamabad.

                                                                                                        40
†
    USAID/Pakistan counts long-term temporary-duty staff (i.e., those in Pakistan for a year) occupying vacant
    positions toward the total number of USAID/Pakistan positions.


PAS personnel in Pakistan are distributed across offices in Islamabad, Karachi, Lahore, and Peshawar. In
total, PAS had 26 U.S. direct hires and 54 Pakistani staff members as of March 31, 2012. As of that date,
NAS had 11 U.S. direct hires, 5 U.S. personal service contractors, and 75 Pakistani staff; USDA had 2
permanent U.S. direct hires, 1 staff person on temporary-duty assignment, and 5 Pakistani staff. USIP
has one employee based in Pakistan.




                                                                                                           41
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities have identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan and identified accompanying mitigation strategies. The
following challenges facing the civilian assistance program remained pertinent during this quarter:

   Political risks. Pakistan continued to experience political, economic, and security-related turmoil.
   Such instability can limit the progress by the Government of Pakistan and the U.S. Government in
   delivering an effective assistance program.

   Operating restrictions. Implementation and monitoring of USAID projects have been hindered by
   stricter Government of Pakistan requirements for travel outside of Islamabad and provincial
   capitals. Visits to some areas require from several days’ to 3 weeks’ prior notification and
   sometimes the approval of the Ministry of Foreign Affairs; these restrictions delay and often lead to
   the cancellation of site visits. Obtaining visas and visa renewals continues to hamper recruitment
   and lower staff morale. As of March 15, 2012, 16 assignment visas, some of which had been pending
   as long as 11 months, remained unissued. Further, local authorities have harassed USAID
   personnel.

   Resistance to economic reform. Entrenched interests may resist policy reforms needed to transform
   the economy. Critical to economic reform are the governance, accountability, and financial
   sufficiency of power sector institutions. Political interference continues to undermine the decision-
   making ability of power company managers and regulatory officials. According to USAID, if Pakistan
   does not implement fundamental reforms, assistance from the United States and other donors will
   have limited long-term effects.

   Vulnerability to natural disasters. Flooding and the resulting damage have delayed implementation of
   projects in flood-affected areas. Because Pakistan is prone to natural disasters such as flooding, this
   is a regular risk. To help Pakistan address this risk, USAID supports programs in water storage and
   management, including the surface water management program for Balochistan and Gomal Zam
   Dam, which contribute to flood mitigation efforts. USAID’s Office of Foreign Disaster Assistance
   has ongoing efforts to strengthen Pakistan’s ability to respond to disasters and reduce related risks.

   Adverse environmental impact.     USAID/Pakistan conducts environmental assessments before
   disbursing funds for projects. These assessments—for example, of the road from Tank to Wana
   and Kaur to Makeen in South Waziristan—sometimes identify concerns and potential risks regarding
   the projects’ impact on the environment or communities. To address these environmental
   concerns, USAID will identify and take the necessary steps to mitigate risks before continuing with
   the activity.


                                                                                                       42
    Leadership turnover. High turnover in entities of the Government of Pakistan has affected planning,
    coordination, and implementation of programs. Senior managers at power companies and senior
    government officials at the Ministry of Water and Power are usually political appointees who spend
    less than 2 years in their positions. The devolution of federal programs for health, education, and
    agriculture to provinces with insufficient guidance on the expected roles and responsibilities of the
    federal, provincial, and district governments also complicates implementation. USAID continues to
    work closely with all government counterparts.

    Limited institutional capacity. In FATA, Khyber Pakhtunkhwa, Sindh, and Balochistan, where there is
    limited institutional capacity and insufficient staff with experience in financial and procurement
    management, extra effort must be made to mitigate the risk of resources being lost through
    inefficiency, theft, or general lack of capacity to handle large amounts of funding.

    Inadequate financial management in Government of Pakistan institutions. The U.S. Government and the
    Government of Pakistan have collaborated to introduce special accounts for budget support
    provided by the United States to address financial challenges and maintain a high degree of
    accountability. However, financial management, accountability, and reporting challenges continue.
    USAID is providing targeted financial management assistance to key Government of Pakistan
    institutions and collaborates with other donors through the Working Group on Public Financial
    Management.

    Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
    conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA,
    Khyber Pakhtunkhwa, and Balochistan, and to engage Pakistani officials in project design. Following
    the incident on the Pakistan border in late November, USAID partners have been under severe
    scrutiny and, sometimes, threat for their association with the U.S. Government. Immediately
    following the incident, some program events were rescheduled, changed, or cancelled.

As described above, security conditions present an ongoing challenge for civilians providing assistance in
certain vulnerable areas, as well as for USAID’s ability to monitor and evaluate programs. USAID is
meeting the challenge by expanding its regional office in Lahore and using Pakistanis to conduct site
visits. USAID/Pakistan awarded an independent monitoring and evaluation contract and is planning
monitoring and evaluation activities. Services provided under the contract include routine monitoring,
training on data entry for project performance, mapping using a geographic information system, and
conducting evaluations and assessments. The integrity of the data provided by USAID/Pakistan’s
implementing partners, which serves as the basis for annual performance reporting, will be verified
under the contract. Additionally, USAID’s Office of Afghanistan and Pakistan Affairs, in conjunction with
USAID/Pakistan, is developing a database (PakInfo) that includes indicators that USAID uses to measure
the progress of its programs, as well as the indicators that each implementing partner uses to track
progress.




                                                                                                       43
To mitigate the fiduciary risk of working with local institutions, USAID has hired accounting firms to
conduct preaward assessments to ensure that potential recipients of USAID assistance meet U.S.
transparency and accountability standards. These assessments identify and document potential
recipients’ weaknesses and areas for improvement. USAID then actively works with partners to build
capacity and mitigate risks. In addition, USAID has begun to rely increasingly on fixed-amount
reimbursable agreements as a mechanism for assistance programs implemented through Pakistani
institutions. These agreements require milestones to be achieved and independently verified before
payments are processed.

USAID has also recently established an Assessment and Strengthening Program that is designed to build
the institutional capacity of local Pakistani organizations. The program helps identify, address, and
validate responses to institutional capacity weaknesses in public sector, civil society, and for-profit
institutions. It enables USAID/Pakistan to work with a wide range of local implementing partners and
host-government institutions in an effective, transparent, efficient, and responsive manner without having
to resort to one-off consultancies or rely on support arrangements provided on a project-by-project
basis.

The capacity-building process focuses on specific organizational needs identified through preaward
assessments and on overall national development objectives and requirements. Related efforts include
developing dedicated project management units within the government, improving policies and
procedures, reviewing and strengthening organograms, ensuring adequate internal controls, improving
financial management and procurement processes, increasing human resource capacity through on-the-
job technical assistance, and providing relevant tools and products for carrying out government
functions.

In addition to these USAID strategies, the OIGs for USAID and DOS have taken the following steps to
ensure that U.S. Government funds are protected against waste and theft:

    Maintaining an in-country oversight presence. As of March 31, 2012, USAID OIG had 14 permanent
    staff in Islamabad (9 U.S. direct hires and 5 Foreign Service National employees), supplemented by a
    staff member on temporary duty. To support its Pakistan portfolio, DOS OIG had one U.S. direct
    hire and two U.S. personal services contractors on staff in Islamabad.

    Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
    provided to Pakistani NGOs. As of March 31, 2012, USAID OIG had a roster of 27 eligible audit firms
    in Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on
    October 15, 2009, USAID OIG has nearly doubled the size of this roster.

    Providing training to Pakistani public accounting firms and to the Office of the Auditor General. USAID OIG
    training for Pakistani public accounting firms and the Office of the Auditor General covers the
    standards and requirements for financial audits of U.S. Government funds. In FY 2012, USAID OIG



                                                                                                            44
    has provided this training to 13 employees of the Office of the Auditor General and 55 participants
    from 24 public accounting firms.

    Providing training to NGOs, government organizations, and USAID contracting and agreement officers’
    representatives and financial analysts. USAID OIG training for these groups addresses the standards
    and requirements for financial audits of U.S. Government funds. To date, USAID OIG has provided
    training seminars to 60 staff members at USAID/Pakistan and 26 staff from ten provincial
    government ministries. USAID OIG planned to hold two 1-day programs in June 2012 for NGOs,
    government organizations, and USAID contracting and agreement officers’ representatives and
    financial analysts.

    Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
    financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by providing
    continued support during the audit process for any audit-related matters. USAID OIG also reviews
    the final reports to ensure that the audits were performed in accordance with its guidelines for
    Financial Audits Contracted by Foreign Recipients, dated February 2009.

    Working with Pakistan’s National Accountability Bureau.9 USAID OIG established a working relationship
    with the National Accountability Bureau in early 2010 and continues to coordinate efforts and
    collaborate on investigations.

    Collaborating with USAID/Pakistan to establish and maintain the Anti-Fraud Hotline in Pakistan. As the
    only one of its kind in Pakistan, the hotline provides a unique and useful tool for Pakistani citizens to
    provide feedback to USAID, its implementing partners, and the Government of Pakistan. This
    quarter, the hotline received 605 complaints through various channels—e-mail, Internet, facsimile,
    mail, and in person. These complaints relate to projects funded by USAID and by other
    organizations, including the Pakistani Government, bilateral donors, and international organizations.

    Providing fraud awareness briefings and expanding investigative coverage. USAID OIG investigators also
    conduct fraud awareness briefings to alert participants—employees, contractors, and grantees—to
    fraudulent practices and schemes and to provide guidance on how to report fraud. During the
    reporting period, special agents in Pakistan delivered seven fraud awareness briefings attended by
    275 participants, including representatives of USAID implementing partners and the National
    Accountability Bureau.

    Coordinating audits and investigations with other U.S. agencies. USAID OIG works with other OIGs, the
    Government Accountability Office (GAO), and law enforcement agencies including the FBI’s
    International Corruption Unit, the National Procurement Task Force, the Financial Crimes

9
  The National Accountability Bureau is the primary law enforcement agency in Pakistan responsible for
investigating white-collar crime and public corruption. It is Pakistan’s only law enforcement agency authorized to
conduct investigations in FATA.


                                                                                                               45
Enforcement Network, and the U.S. Embassy’s Legal Attaché Office to coordinate audit and
investigative work with the aim of eliminating duplication and maximizing the efficient use of
government resources.




                                                                                           46
Oversight Status
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the Millennium Challenge
Corporation, the United States African Development Foundation, and the Inter-American Foundation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits, financial audits, and investigations.

Since the start of FY 2010, USAID OIG has issued 25 Pakistan-based financial audits and 14 performance
audits and reviews of Pakistan-related assistance efforts. The reports made 88 recommendations for
improvements to USAID programs and activities. Performance audits conducted since FY 2010 have
noted needed improvements in a range of management and performance areas. Most have identified
contract or project management deficiencies and internal control weaknesses, and more than four in ten
have found noncompliance with relevant procedures or regulations. Financial audits overseen by OIG
since FY 2010 have covered more than $383 million in expenditures and identified $572,386 in sustained
questioned costs.

Work Completed

From January 1 to March 31, 2012, USAID OIG completed two performance audits and six financial
audits:

   Audit of USAID’s Pakistan Transition Initiative Program (Report No. G-391-12-003-P,
   February 3, 2012). This audit concluded that the program succeeded in identifying basic
   community needs and implementing small-scale projects in areas suffering from instability and
   extremism. Grants, valued at approximately $19.7 million, were awarded for projects in remote
   and dangerous environments prone to flooding, lacking basic infrastructure and the rule of law, and
   subject to widespread violence and destruction due to militant activity. However, the audit found
   that the USAID mission had not developed a formal written plan with clear criteria linking the
   implementation of program activities with the larger, missionwide development portfolio for areas
   where activities are being implemented. The report made one recommendation to address this
   issue.

   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program (Report No. G-
   391-12-004-P, March 16, 2012). Pakistan’s Higher Education Commission approved new
   programs and curricula for a 2-year associate degree in education and a 4-year bachelor of
   education degree based in part on the Pre-Service Teacher Education Program’s recommendations.
   The program plans to expand the number of students enrolled in the degree programs and increase


                                                                                                   47
the number of colleges and universities offering the new degrees over the next 2 years by
supporting implementation at selected colleges and universities. OIG auditors found that, as a result
of program efforts to date, 16 Pakistani teaching institutions have adopted the new degree
programs. Notwithstanding its success in this regard, the program did not meet targets for 12 of 19
indicators. Some targets were not met because activities, such as student scholarships and grant
awards, were postponed. Other program outputs, such as renovations at college and university
facilities and the number of teachers enrolled in the new curricula, fell short of targets. The report
made two recommendations to address related issues. USAID agreed with both recommendations
and has developed plans to implement them.

Financial Audit of the Aga Khan University Flood Response Program, USAID/Pakistan
Cooperative Agreement No. 391-G-00-10-01188-00, Managed by Aga Khan University,
for the Period From August 30, 2010, to December 31, 2010 (Report No. G-391-12-003-
R, January 6, 2012). This audit covered Aga Khan University program revenues and costs of
$723,764 and $1,057,045, respectively. The audit firm concluded that the fund accountability
statement presented fairly, in all material respects, program revenues and costs incurred under the
agreement for the period audited. The audit firm did not identify any questioned costs, material
internal control weaknesses, or material instances of noncompliance. However, the audit report
identified two significant deficiencies in internal control over fixed assets and inventory and
recommended that USAID/Pakistan ensure that the Aga Khan University corrects these significant
deficiencies.

Financial Audit of Anti-Corruption Program Pakistan, USAID/Pakistan Cooperative
Agreement No. 391-A-00-09-01117-00, and Anti-Fraud Hotline Pakistan,
USAID/Pakistan Cooperative Agreement No. 391-A-00-10-01194-00, Managed by
Transparency International-Pakistan, for the Year Ended June 30, 2011 (Report No. G-
391-12-004-R, January 13, 2012). This audit covered Transparency International-Pakistan
program revenues and costs of $450,829 and $387,825, respectively. The audit concluded that the
fund accountability statement presented fairly, in all material respects, program revenues and costs
incurred under the agreement for the period audited. The audit did not identify any questioned
costs, material internal control weaknesses, or material instances of noncompliance, and the report
did not make any recommendations.

Financial Audit of the Merit and Need-Based Scholarship Project, USAID/Pakistan
Agreement No. 391-G-00-04-01023-00, Managed by the Higher Education Commission,
for the Period From July 2, 2004, to June 30, 2010 (Report No. G-391-12-005-R,
February 17, 2012). This audit covered Government of Pakistan Higher Education Commission
program revenues and costs of $6,089,134 and $6,055,675, respectively. The Auditor General
concluded that all six fund accountability statements audited presented fairly, in all material respects,
program revenues and costs incurred under the agreement for the period audited. The Auditor
General did not identify any material internal control weaknesses or material instances of
noncompliance in its audit report. However, in a separate management letter issued to HEC, the
Auditor General questioned costs of $1,665,174. These questioned costs stemmed from a number


                                                                                                      48
   of observations in the audit report involving noncompliance with the agreement and policies and
   procedures. The report made five recommendations to address these issues.

   Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
   No. 391-012, Implementation Letter No. 1, Managed by the Economic Affairs Division
   of the Government of Pakistan, for the Period From June 8, 2009, to June 15, 2011
   (Report No. G-391-12-006-R, February 24, 2012). This audit covered budgetary support of
   $44 million to the Government of Pakistan. The Auditor General concluded that the fund
   accountability statement presented fairly, in all material respects, program revenues and costs
   incurred under the agreement for the period audited. The Auditor General did not identify any
   questioned costs, material internal control weaknesses, or material instances of noncompliance in its
   audit report. However, in a separate management letter issued to the management of the Economic
   Affairs Division, the Auditor General noted a number of report observations. The Auditor General
   did not make any related recommendations because the program had ended.

   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
   Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support Fund,
   for the Period From July 1, 2010, to June 30, 2011 (Report No. G-391-12-007-R,
   March 6, 2012). This audit covered Competitiveness Support Fund program revenues and costs
   of $2,318,674 and $2,197,622, respectively. USAID OIG reviewed the report and found that it
   generally met the requirements of U.S. Government Auditing Standards and OIG guidelines. The
   audit firm concluded that the fund accountability statement presented fairly, in all material respects,
   program revenues and costs incurred under the cooperative agreement for the period audited. The
   audit firm did not identify any questioned costs or material internal control weaknesses. However,
   the audit identified two material instances of noncompliance and made one recommendation to
   USAID/Pakistan to correct them.

   Financial Audit of USAID/Pakistan’s Rupee Trust Fund, for the Period From October 1,
   2009, to September 30, 2011 (Report No. G-391-12-001-N, March 20, 2012). This audit
   covered USAID/Pakistan’s rupee trust fund receipts of $167,886 and costs of $859,543. USAID
   OIG reviewed the report and found that the audit was performed in accordance with U.S.
   Government Auditing Standards and OIG guidelines. The audit firm concluded that the fund
   accountability statement presented fairly, in all material respects, funds received and costs incurred
   under the agreement. The audit firm did not identify any questioned costs or make any
   recommendations.

Work Under Way

As of March 31, 2012, USAID OIG had three performance audits, one review, seven financial audits, one
agreed upon procedures engagement, and one quality control review in progress:




                                                                                                       49
Audit of USAID/Pakistan’s Entrepreneurs Program. The objective of this audit is to
determine whether USAID/Pakistan’s Entrepreneur Project made progress building the capacity of
partners and expanding opportunities for microentrepreneurs.

Audit of USAID/Pakistan’s Benazir Income Support Program. This audit will determine
whether USAID/Pakistan’s cash transfers provided to BISP reached intended beneficiaries.

Audit of USAID/Pakistan’s Reconstruction Activities in Earthquake Affected Areas.
The objective of this audit is to determine whether USAID/Pakistan’s reconstruction activities in
earthquake-affected areas are being implemented effectively.

Review of USAID/Pakistan’s Cost Estimates for Transportation and Storage on
Assignment. The objective of this review is to develop a more reasonable estimate for obligating
funds for the transportation and storage of goods for employees assigned to USAID/Pakistan.

Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement,
Activity No. 391-012-IL-03 for University and Technical Education in FATA Through the
Pakistan Higher Education Commission, for the Period September 30, 2009, to June 30,
2010.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Agreement No. 391-TDR-FARA-002-00 for the Year Ended June 30,
2011.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Agreement No. 391-PEPA-ENR-GOMAL-PIL-001 for the Year Ended
June 30, 2011.

Financial Audit of USAID Funds Managed by the Water and Power Development
Authority Under Agreement No. 391-PEPA-ENR-SATPARA-PIL-001 for the Year
Ended June 30, 2011.

Financial Audit of USAID Funds Managed by Jamshoro Power Company Limited Under
Agreement No. 391-JAM-FARA-003-00 for the Year Ended June 30, 2011.

Financial Audit of USAID Funds Managed by Northern Power Generation Company
Limited Under Agreement No. 391-MUZ-FARA-004-00 for the Year Ended June 30,
2011.

Financial Audit of the Assessment and Strengthening Program USAID/Pakistan
Cooperative Agreement No. 391-A-00-11-01202-00, and Financial Audit of Merit and
Needs Based Scholarship Program, Subaward Under USAID/Pakistan Cooperative


                                                                                              50
    Agreement No. 391-G-00-04-01023-00, Managed by Lahore University of Management
    Sciences, for the Year Ended June 30, 2011.

    Agreed Upon Procedures Engagement on USAID/Pakistan Resources Managed by the
    Rural Support Programmes Network Under Agreement No. 391-A-00-11-01213-00, for
    Sindh Agricultural Recovery Project, for the Period From November 13, 2010, to July 31,
    2011.

    Quality Control Review of the Audit Report and Audit Documentation for the Financial
    Audit Conducted by Avais Hyder Liaqut Nauman for the Anti-Corruption Pakistan
    Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-09-01117-00, and
    Anti-Fraud Hotline Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-
    10-01194-00, Managed by Transparency International-Pakistan, for the Year Ended
    June 30, 2011.

Work Planned

In addition to those completed and under way, USAID OIG plans to conduct four performance audits
during FY 2012:

    Audit of USAID/Pakistan’s Design for Sustainability in the Jamshoro Thermal Power
    Station Repair and Maintenance Activity. This audit will determine whether USAID/Pakistan
    has built sustainability into the repair and maintenance of the Jamshoro Thermal Power Station.

    Audit of USAID/Pakistan’s Assessment and Strengthening Program for Local
    Organizations and Government of Pakistan Entities. This audit will determine whether the
    program is improving the capacity of local organizations and Government of Pakistan entities to
    manage USAID funds responsibly.

    Audit of USAID/Pakistan’s Gomal Zam Multipurpose Dam Project.                       This audit will
    determine whether the project is on track to meet its budget and timelines.

    Audit of USAID/Pakistan’s Monitoring and Evaluation Program. This audit will determine
    whether USAID/Pakistan is using results from its monitoring and evaluation program to manage its
    portfolio.

As of March 31, 2012, ten financial audits of USAID funds were in the planning stage.

Investigative Work and the Anti-Fraud Hotline

As of March 31, 2012, USAID OIG had 32 open investigations pertaining to Pakistan. During the
reporting period, OIG investigators closed five cases.



                                                                                                    51
The following significant USAID OIG investigative developments took place between January 1 and
March 31, 2012:

Funds Collected From Implementer for Fraud and Theft in FATA Program. In April 2008,
USAID’s primary implementer for the FATA Livelihood Development Program entered into a
subcontract with Abt Associates Inc. to undertake a $6 million cash-for-work tree planting program in
FATA to create job opportunities for youth and unemployed individuals in the area. Abt Associates, in
turn, sought competitive bids from vendors to supply tree saplings.

As a result of allegations made to USAID OIG, the primary implementer, the Cooperative Housing
Foundation, conducted an audit of the program and determined that, of the 2.2 million trees contracted
to be planted, only 1.2 million trees were documented as having been purchased. In addition, three of
the five vendors that Abt Associates had selected to procure saplings were found to be owned and
controlled by the same family. OIG’s investigation confirmed that USAID funds were lost as a result of
theft, overpayment, fraud, and mismanagement by Abt Associates. In response to the investigative
findings, USAID collected $336,603 in reimbursements from the Cooperative Housing Foundation.

Outreach. USAID OIG continued to work to reinforce fraud reporting and investigation in Pakistan
through outreach efforts. In late February 2012, USAID’s Acting Inspector General and the special
agent in charge for the region participated in a fraud awareness and prevention seminar in Karachi
sponsored by Transparency International-Pakistan. More than 80 people attended the seminar, including
representatives of USAID implementing partners, Government of Pakistan personnel implementing
USAID-funded projects, and staff and cooperating partners of the U.N. World Food Programme. The
seminar featured presentations by USAID OIG, the Sindh Public Procurement Regulatory Authority, and
the staff of the Anti-Fraud Hotline. USAID OIG’s presentation focused on recent fraud trends and
reporting requirements. Other presenters at the event provided an overview of hotline work to date
and discussed Pakistani public procurement rules that apply to USAID-funded projects implemented by
provincial government agencies.

Anti-Fraud Hotline. During the reporting period, USAID OIG also continued to work closely with
the hotline to vet and investigate incoming complaints. This quarter, the hotline received 605
complaints.

As in the previous two quarters, most hotline complaints originated from Sindh Province in
southeastern Pakistan, the seat of Pakistan’s largest city and site of flooding last fall. During this quarter,
total complaints by province were as follows: Sindh 465 (77 percent), Punjab 62 (10 percent),
Balochistan 37 (6 percent), and Khyber Pakhtunkhwa 20 (3 percent).                     Other provinces and
administrative areas in Pakistan accounted for 3 percent of complaints.

As shown in the following graphic, the majority of complaints received during the reporting period
related to service delivery.




                                                                                                            52
                      Distribution of Hotline Complaints by Type

               12 %            9%
                                       5%
                                        1%                 Solicitation of Bribes, Kickbacks, or Favors
                                                           Theft of Goods
                                                           Procurement Fraud
                                                           Problem With Service Delivery
                                                           Other

                        73 %




                  Source: Transparency International-Pakistan.


Since its introduction in February 2011, the Anti-Fraud Hotline has been widely advertised on television,
radio, newspaper, and billboards. As the only one of its kind in Pakistan, the hotline has received a large
volume of complaints related to programs implemented by other agencies. USAID OIG refers these
complaints to the appropriate agency for further review and investigation. From January 1 to March 31,
2012, OIG referred 314 hotline complaints to outside entities, including the U.N. World Food
Programme, UNICEF, the U.N. Development Programme, the U.N. Office for Project Services, the U.N.
Food and Agriculture Organization, the World Bank, the United Kingdom’s Department for
International Development, Pakistan’s BISP, Save the Children, Mercy Corps, and the Awaz Foundation
(a Pakistani NGO).

The Anti-Fraud Hotline also works closely with USAID OIG to monitor and address complaints
regarding violations of the Pakistan Public Procurement Rules (PPR) of 2004 in the tendering of USAID-
funded projects being carried out by the Government of Pakistan. Allegations of PPR violations received
through the hotline are handled in accordance with the procedures set forth in the PPR, which require
the tendering government agency to review and respond to the complaint within a set period. When a
violation of the PPR has occurred, the tendering agency is required to cancel or correct the
procurement. If the issue is not properly resolved by the tendering agency, the Pakistan Public
Procurement Regulatory Agency and the Supreme Court of Pakistan can intervene.

In February 2012, the hotline received a complaint from a Pakistani firm relating to BISP, the
Government of Pakistan’s program designed to set up an effective national safety net and foster the
long-term development of the poor. According to the complaint, actions by BISP staff on bids for a
data-processing contract violated the PPR. The bid from one bidder on the contract arrived shortly
after the deadline for submissions, but the other bidder consented to including the late bid in the
evaluation process. BISP personnel consulted with the Pakistan Public Procurement Regulatory Agency

                                                                                                          53
on what action to take in the procurement and were advised to evaluate both bids or call for new ones.
Despite this, BISP officials initially elected to evaluate only the first bid. After hotline personnel advised
BISP officials of their responsibilities under the PPR, they reconsidered and reinvited the tendering of
bids for the data-processing contract.


Department of State Office of Inspector General

Work Under Way

As of March 31, 2012, DOS OIG had one audit, two evaluations, and one review under way:

    Audit of the U.S. Mission in Pakistan’s Local Guard Force Contract. The audit will
    evaluate DOS’s contract with a security contractor, G4S, to determine whether the contract has
    been administered effectively and whether G4S has achieved established performance goals. The
    contract with G4S includes provision of the local guard force for Embassy Islamabad, as well as for
    the three U.S. consulates in Pakistan.

    Evaluation of the Antiterrorism Assistance Program for Countries Under the Bureau of
    Near Eastern Affairs. This evaluation will assess the degree to which the program has achieved
    its intended outcomes in the region and whether DOS has provided effective oversight of program
    contracts and U.S. Government-provided equipment.

    Performance Evaluation of Management Controls Over Civilian Assistance to Pakistan.
    The evaluation will review DOS’s civilian assistance to Pakistan (excluding USAID programs) to
    determine whether management controls are in place, documented, and operating as intended and
    to ensure that DOS-administered funds are protected from waste, fraud, and diversion.

    Compliance Follow-Up Review of the 2010 Inspection of Embassy Islamabad and
    Constituent Posts (ISP-I-10-64). This review is to determine the degree to which the Embassy
    and consulates have implemented recommendations from the 2010 inspection.

Work Planned

In addition to those under way, DOS OIG plans to conduct one evaluation and two audits of Pakistan-
related programs and activities during FY 2012:

    Evaluation of Emergency Action Plan for Embassy Islamabad. The evaluation will focus on
    Embassy Islamabad’s formulation of a comprehensive Emergency Action Plan, the completeness of
    associated documentation, and general knowledge and preparedness of all mission personnel.

    Audit of the Administration and Oversight of Economic Support Funds for Pakistan.
    This audit will determine whether DOS is effectively administering and overseeing the funds.


                                                                                                           54
   Audit of the Administration and Oversight of the Pakistan National Police Training and
   Mentoring Program. This audit will determine whether the Bureau of International Narcotics
   and Law Enforcement Affairs’ administration and oversight of the program have been effective and
   whether the program has achieved stated performance goals.


Department of Defense Office of Inspector General

Work Under Way

As of March 31, 2012, DOD OIG had two audits underway that may affect U.S. assistance to Pakistan:

       Audit of the Counter Narcoterrorism Technology Program Office’s Mi-17 Overhaul
       Contracts. This audit will determine whether the oversight and management of Northrop
       Grumman contracts for 1,500-hour maintenance overhauls of Mi-17 aircraft were performed in
       accordance with federal requirements and whether contracting officers ensured that contract
       prices were fair and reasonable. Included in the contracts were eight Mi-17 helicopters
       belonging to Pakistan. Those aircraft have been overhauled and returned to Pakistan. DOD
       OIG expects to finalize this audit in May 2012.

       Audit of Mi-17 Overhauls and Cockpit Modifications. This audit is being conducted to
       determine whether DOD officials awarded and administered Science and Engineering Services,
       Inc., contracts for the overhaul and modification of Mi-17 aircraft in accordance with U.S.
       Government and DOD regulations and policies. Included in the contracts were five Pakistani
       helicopters; however, a stop-work order was issued for this effort before Pakistan delivered the
       helicopters for overhaul.


Government Accountability Office

GAO continues to assist congressional clients by conducting increased oversight and accountability of
U.S. efforts in Pakistan. GAO did not complete any Pakistan-related work during this reporting period
but is currently working to complete one engagement. GAO’s plans for additional Pakistan-related
work in FY 2012 are subject to congressional interests and requests.

Work Under Way

As of March 31, 2012, GAO had one ongoing engagement concerning Pakistan:

   Pakistan Ammonium Nitrate Smuggling. Calcium ammonium nitrate fertilizer is used to
   manufacture improvised explosive devices (IEDs) in Afghanistan that are a threat to U.S., coalition,
   and Afghan forces. Pakistan is a significant source of the ammonium nitrate fertilizer that is used in
   Afghanistan. GAO is (1) describing the status of U.S. efforts to assist Pakistan to counter IEDs and
   (2) reviewing DOS tracking of U.S. assistance efforts in Pakistan to counter IEDs. GAO expects to
   complete this engagement in May 2012.

                                                                                                      55
Completed Oversight Reports as of March 31, 2012

Table 11 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

                  Table 11. Oversight Reports Completed as of March 31, 2012

 Agency      Report Number       Report Date                             Report Title

FY 2012 Reports

                                                Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the
USAID        G-391-12-001-N        03/20/12
                                                Period From October 1, 2009, to September 30, 2011

                                                Audit of USAID/Pakistan’s Pre-Service Teacher Education
USAID        G-391-12-004-P        03/16/12
                                                Program

                                                Financial Audit of the Pakistan Competitiveness Support Fund
USAID        G-391-12-007-R        03/06/12
                                                for the Period From July 1, 2010, to June 30, 2011

                                                Financial Audit of Budgetary Support Managed by the
USAID        G-391-12-006-R        02/24/12     Economic Affairs Division of the Government of Pakistan for
                                                the Period From June 8, 2009, to June 15, 2011

USAID        G-391-12-003-P        02/03/12     Audit of USAID’s Pakistan Transition Initiative Program

                                                Financial Audit of the Merit and Need Based Scholarship
USAID        G-391-12-005-R        02/17/12     Project Managed by the Higher Education Commission for the
                                                Period From July 2, 2004, to June 30, 2010

                                                Financial Audit of Anti-Corruption Program Pakistan and Anti-
USAID        G-391-12-004-R        01/13/12     Fraud Hotline Pakistan Managed by Transparency
                                                International-Pakistan for the Year Ended June 30, 2011

                                                Financial Audit of the Aga Khan University Flood Response
USAID        G-391-12-003-R        01/06/12     Program for the Period From August 30, 2010, to December
                                                31, 2010

                                                Pakistan: Assessment of State’s Justification to Support Its
GAO          NA                    11/29/11
                                                Certification of Pakistan’s Cooperation (Classified)

                                                Audit of USAID/Pakistan’s Energy Efficiency and Capacity
USAID        G-391-12-002-P        11/23/11
                                                Program

USAID        G-391-12-001-P         11/3/11     Audit of USAID/Pakistan’s Firms Project

                                                Financial Audit of Budgetary Support to the Government of
                                                Pakistan, USAID/Pakistan Program Assistance Agreement No.
USAID        G-391-12-002-R         11/3/11
                                                391-005-ES-07, Managed by the Ministry of Finance, for the
                                                Year Ended June 30, 2008


                                                                                                               56
 Agency     Report Number    Report Date                           Report Title

                                           Financial Audit of Budgetary Support, USAID/Pakistan
                                           Program Assistance Agreement No. 391-AAG-012-IL -02,
USAID       G-391-12-001-R     10/26/11
                                           Managed by the Benazir Income Support Program, for the
                                           Period From September 30, 2009, to March 31, 2011

FY 2011 Reports

                                           Combating Terrorism: Pakistan Counterinsurgency Funds
GAO         GAO-11-860SU       9/20/11     Disbursed, but Human Rights Vetting Process Can Be
                                           Enhanced

                                           Audit of USAID/Pakistan’s Community Rehabilitation
USAID       G-391-11-006-P     8/29/11
                                           Infrastructure Support Program

                                           Pakistan Assistance: Relatively Little of the $3 Billion in
                                           Requested Assistance Is Subject to State’s Certification of
GAO         GAO-11-786R        7/19/11
                                           Pakistan’s Progress on Nonproliferation and
                                           Counterterrorism Issues

                                           Closeout Financial Audit of the Forman Christian College for
                                           the Development of a 4-Year Bachelor Degree Program and
USAID       G-391-11-004-R     6/23/11
                                           Strengthening Programs in Basic Science and Information
                                           Technology, for the Period July 1, 2009, to March 31, 2010

                                           Audit of USAID/Pakistan’s Road Rehabilitation and
USAID       G-391-11-005-P     6/20/11     Reconstruction Activities Under the Quick Impact Projects in
                                           South Waziristan

                                           Financial Audit of USAID/Pakistan’s Rupee Trust Fund, for the
USAID       G-391-11-001-N     5/26/11
                                           Period January 1, 2006, to September 30, 2009

                                           Financial Audit of the Pakistan Competitiveness Support Fund,
                                           USAID/Pakistan Grant Agreement No. 391-G-00-06-01073-
USAID       G-391-11-003-R     5/10/11
                                           00, Managed by Competitiveness Support Fund for the Period
                                           July 1, 2009, to June 30, 2010

                                           Audit of USAID/Pakistan’s Management of Preaward
USAID       G-391-11-004-P      5/6/11
                                           Assessments

                                           Closeout Financial Audit of the Program ―Interactive Teaching
                                           and Learning Project,‖ USAID/Pakistan Cooperative
                                           Agreement No. 391-A-00-06-01075-00, and Financial Audit of
                                           Program ―Links to Learning Education Support to Pakistan,‖
USAID       G-391-11-002-R      4/8/11
                                           Subaward under USAID/Pakistan Cooperative Agreement No.
                                           391-A-00-08-01100-00, Managed by Children’s Global
                                           Network Pakistan Limited, for the Period July 1, 2008, to
                                           February 26, 2010

                                           Department of State’s Report to Congress and U.S. Oversight
GAO         GAO-11-310R        2/17/11
                                           of Civilian Assistance to Pakistan Can Be Further Enhanced




                                                                                                         57
 Agency     Report Number    Report Date                           Report Title

                                           Accountability for U.S. Equipment Provided to Pakistan
GAO         GAO-11-156R        2/15/11     Security Forces in the Western Frontier Needs to be
                                           Improved

                                           Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID       G-391-11-003-P     1/24/11
                                           Administered by Local Nongovernmental Organizations

                                           The Bureau of Population, Refugees and Migration’s Internally
DOS         MERO-I-11-01         1/11
                                           Displaced Persons Program in Pakistan

                                           Financial Audit of Khushhali Bank Limited Under the
                                           Developing Non-Bankable Territories for Financial Services
USAID       G-391-11-001-R     12/30/10
                                           Program (Close-Out Audit), for the Period January 1, 2009, to
                                           September 30, 2009

                                           Audit of USAID/Pakistan’s Livelihood Development Program
USAID       G-391-11-002-P     12/10/10    for the Upper Region of the Federally Administered Tribal
                                           Areas

                                           Audit of USAID/Pakistan’s Livelihood Development Program
USAID       G-391-11-001-P     12/10/10    for the Lower Region of the Federally Administered Tribal
                                           Areas

                                           Financial Audit of the Costs Incurred by Research Triangle
                                           Institute Under the Education Sector Reform Assistance
USAID       G-391-11-001-D     11/8/10
                                           Program’s School Enhancement Program Component, for the
                                           Period December 4, 2002, to September 30, 2007

FY 2010 Reports

                                           Audit of USAID/Pakistan’s Family Advancement for Life and
USAID       5-391-10-012-P     8/31/10
                                           Health Program

                                           Financial Audit of the Pakistan Competitiveness Support Fund,
                                           USAID/Pakistan Grant Agreement No. 391-G-00-06-01073-
USAID       G-391-10-001-R      8/4/10
                                           00, Managed by the Competitiveness Support Fund, for the
                                           Period February 3, 2006, to June 30, 2009

                                           Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
USAID       5-391-10-010-P     6/28/10     Integration and Decentralization in Earthquake-Affected Areas
                                           Project

                                           Review of USAID’s Internally Displaced Persons Programs in
USAID       5-391-10-001-S     6/28/10
                                           Pakistan

DOS         ISP-I-10-64          6/10      Inspection of Embassy Islamabad, Pakistan

                                           Financial Audit of USAID Funds Managed by Forman Christian
USAID       5-391-10-033-R     5/18/10
                                           College, Lahore, for the Period July 1, 2007, to June 30, 2009




                                                                                                     58
 Agency   Report Number    Report Date                           Report Title

                                         Financial Audit of USAID Funds Managed by Khushhali Bank
USAID     5-391-10-029-R     4/30/10
                                         for the Year Ended December 31, 2008

                                         Combating Terrorism: Planning and Documentation of U.S.
GAO       GAO-10-289         4/15/10     Development Assistance in Pakistan’s Federally Administered
                                         Tribal Areas Need to Be Improved

                                         Closeout Financial Audit of USAID Funds Managed by
USAID     5-391-10-026-R     3/24/10     Greenstar Social Marketing Pakistan (Guarantee) Limited, for
                                         the Period July 1 to December 31, 2007

                                         The Bureau of International Narcotics and Law Enforcement
DOS       MERO-A-10-03         3/10      Affairs Air Wing Program in Afghanistan and Pakistan,
                                         Performance Audit

                                         Closeout Financial Audit of USAID Funds Managed by Aga
USAID     5-391-10-020-R     2/11/10     Khan University—Examination Board, for the Year Ended
                                         December 31, 2007

                                         Audit of USAID/Pakistan’s Capacity Building for the Federally
USAID     5-391-10-005-P     1/28/10
                                         Administered Tribal Areas Development Program

                                         Financial Audit of USAID Funds Managed by Children’s Global
USAID     5-391-10-012-R     12/22/09
                                         Network Pakistan Limited, for the Year Ended June 30, 2008

                                         Status of the Bureau of International Narcotics and Law
DOS       MERO-A-10-02        12/09      Enforcement Affairs Counternarcotics Programs in
                                         Afghanistan, Performance Audit

                                         Effectiveness of Counter Narcotics Programs in Pakistan,
DOS       MERO-A-10-01        11/09
                                         Performance Audit




                                                                                                    59
                                                                              Appendix



Appendix—–Abbreviations
BISP     Benazir Income Support Program

DOC      Department of Commerce

DOD      Department of Defense

DOS      Department of State

ECON     Economic Section (U.S. Embassy Islamabad)

ERMA     Emergency Refugee and Migration Assistance

ESF      Economic Support Fund

FATA     Federally Administered Tribal Areas

FBI      Federal Bureau of Investigation

FY       fiscal year

GAO      Government Accountability Office

GHCS     Global Health and Child Survival

HEC      Higher Education Commission

IED      improvised explosive device

INCLE    International Narcotics and Law Enforcement

LED      light-emitting diode

MRA      Migration and Refugee Assistance

NA       not available

NADR     Nonproliferation, Anti-terrorism, Demining, and Related Programs

NAS      Narcotics Affairs Section (U.S. Embassy Islamabad)

NGO      nongovernmental organization

OIG      Office of Inspector General

PaRRSA   Provincial Reconstruction, Rehabilitation and Settlement Authority



                                                                                   60
                                                                               Appendix


PAS      Public Affairs Section (U.S. Embassy Islamabad)

POL      Political Section (U.S. Embassy Islamabad)

PPR      Public Procurement Rules

PRM      Population, Refugee, and Migration Section (U.S. Embassy Islamabad)

RSO      Regional Security Office (U.S. Embassy Islamabad)

U.N.     United Nations

UNICEF   United Nations Children’s Fund

USAID    U.S. Agency for International Development

USDA     U.S. Department of Agriculture

USIP     U.S. Institute of Peace

USTDA    U.S. Trade and Development Agency

WAPDA    Water and Power Development Authority

WHO      World Health Organization




                                                                                    61
